<html>
<title> - COMPREHENSIVE IMMIGRATION REFORM IN 2009: CAN WE DO IT AND HOW?</title>
<body><pre>[Senate Hearing 111-296]
[From the U.S. Government Publishing Office]


                                                        S. Hrg. 111-296
 
    COMPREHENSIVE IMMIGRATION REFORM IN 2009: CAN WE DO IT AND HOW? 

=======================================================================

                                HEARING

                               before the

                      SUBCOMMITTEE ON IMMIGRATION,
                      REFUGEES AND BORDER SECURITY

                                 of the

                       COMMITTEE ON THE JUDICIARY
                          UNITED STATES SENATE

                     ONE HUNDRED ELEVENTH CONGRESS

                             FIRST SESSION

                               __________

                             APRIL 30, 2009

                               __________

                          Serial No. J-111-18

                               __________

         Printed for the use of the Committee on the Judiciary

                               ----------
                         U.S. GOVERNMENT PRINTING OFFICE 

55-034 PDF                       WASHINGTON : 2010 

For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
Washington, DC 20402-0001 






















                       COMMITTEE ON THE JUDICIARY

                  PATRICK J. LEAHY, Vermont, Chairman
HERB KOHL, Wisconsin                 JEFF SESSIONS, Alabama
DIANNE FEINSTEIN, California         ORRIN G. HATCH, Utah
RUSSELL D. FEINGOLD, Wisconsin       CHARLES E. GRASSLEY, Iowa
CHARLES E. SCHUMER, New York         JON KYL, Arizona
RICHARD J. DURBIN, Illinois          LINDSEY O. GRAHAM, South Carolina
BENJAMIN L. CARDIN, Maryland         JOHN CORNYN, Texas
SHELDON WHITEHOUSE, Rhode Island     TOM COBURN, Oklahoma
RON WYDEN, Oregon
AMY KLOBUCHAR, Minnesota
EDWARD E. KAUFMAN, Delaware
ARLEN SPECTER, Pennsylvania
            Bruce A. Cohen, Chief Counsel and Staff Director
                  Matt Miner, Republican Chief Counsel
                                 ------                                

       Subcommittee on Immigration, Refugees and Border Security

                 CHARLES E. SCHUMER, New York, Chairman
PATRICK J. LEAHY, Vermont            JOHN CORNYN, Texas
DIANNE FEINSTEIN, California         CHARLES E. GRASSLEY, Iowa
RICHARD J. DURBIN, Illinois          JON KYL, Arizona
SHELDON WHITEHOUSE, Rhode Island     JEFF SESSIONS, Alabama
RON WYDEN, Oregon
               Stephanie Marty, Democratic Chief Counsel
              Matthew L. Johnson, Republican Chief Counsel















                            C O N T E N T S

                              ----------                              

                    STATEMENTS OF COMMITTEE MEMBERS

                                                                   Page

Cornyn, Hon. John, a U.S. Senator from the State of Texas........     3
Feinstein, Hon. Dianne, a U.S. Senator from the State of 
  California.....................................................     6
Kennedy, Hon. Edward M., a U.S. Senator from the State of 
  Massachusetts, prepared statement..............................    81
Kyl, Hon. Jon, a U.S. Senator from the State of Arizona..........     7
Leahy, Hon. Patrick J., a U.S. Senator from the State of Vermont, 
  prepared statement.............................................    93
Schumer, Hon. Charles E., a U.S. Senator from the State of New 
  York...........................................................     1
    prepared statement...........................................   261

                               WITNESSES

Greenspan, Alan, Economist, Former Chairman, Federal Reserve 
  System, Washington, DC.........................................     9
Henderson, Wade, President and Chief Executive Officer, 
  Leadership Conference on Civil Rights, Washington, DC..........    30
Hunter, Joel C., Senior Pastor, Northland, A Church Distributed, 
  and Member, President's Advisory Council on Faith-Based and 
  Neighborhood Partnerships, Longwood, Florida...................    15
Kobach, Kris W., Professor of Law, University of Missouri, Kansas 
  City, Missouri.................................................    32
Manger, J. Thomas, Chief of Police, Montgomery County, Maryland, 
  and Chairman of Legislative Committee of Major Cities Chiefs 
  Association, Rockville, Maryland...............................    12
Medina, Eliseo, Executive Vice President, Service Employees 
  International Union, Washington, DC............................    28
Meissner, Doris, Senior Fellow, Migration Policy Institute, 
  Former Commissioner, U.S. Immigration and Naturalization 
  Service, Washington, DC........................................    26
Moseley, Jeff, President and Chief Executive Officer, Greater 
  Houston Partnership, Houston, Texas............................    18

                       SUBMISSIONS FOR THE RECORD

Allen, Gregory K., Chief of Police, The City of El Paso, El Paso 
  Texas, letter..................................................    45
America's Voice, Washington, DC, statement.......................    46
De Castro, Director of Immigration and National Campaigns, 
  National Council of La Raza....................................    48
Eisenbrey, Ross, Vice President, Economic Policy Institute, 
  Washington, DC, letter.........................................    59
Essential Worker Immigration Coalition, Washington, DC, letter...    60
Greenspan, Alan, Economist, Former Chairman, Federal Reserve 
  System, Washington, DC, statement..............................    62
Henderson, Wade, President and Chief Executive Officer, 
  Leadership Conference on Civil Rights, Washington, DC, 
  statement......................................................    66
Hunter, Joel C., Senior Pastor, Northland, A Church Distributed, 
  and Member, President's Advisory Council on Faith-Based and 
  Neighborhood Partnerships, Longwood, Florida, statement........    74
Kobach, Kris W., Professor of Law, University of Missouri, Kansas 
  City, Missouri, statement......................................    83
Lee, EunSook, Executive Director, National Korean American 
  Service & Education Consortium, Washington, DC, statement......    95
Manger, J. Thomas, Chief of Police, Montgomery County, Maryland, 
  and Chairman of Legislative Committee of Major Cities Chiefs 
  Association, Rockville, Maryland:
    Statement....................................................    99
    Chairman of the Legislative Committee for the Major Cities 
      Chiefs Association, on behalf of the Major Cities Chiefs...   106
    M.C.C. Nine Point Position...................................   118
    Dealing with Foreign Nationals...............................   129
    National Conference of State Legislatures Implementation of 
      the Real ID................................................   133
    Major Cities Chiefs Position, paper..........................   134
    Police Chiefs and Sheriffs Speak Out on Local Immigration 
      Enforcement................................................   135
Medina, Eliseo, Executive Vice President, Service Employees 
  International Union, Washington, DC:
    Statement....................................................   182
    The Labor Movement's Framework for Comprehensive Immigration 
      Reform, AFL-CIO and Change to Win..........................   186
Meissner, Doris, Senior Fellow, Migration Policy Institute, 
  Former Commissioner, U.S. Immigration and Naturalization 
  Service, Washington, DC, statement.............................   188
Moseley, Jeff, President and Chief Executive Officer, Greater 
  Houston Partnership, Houston, Texas, statement.................   206
Narasaki, Karen K., President and Executive Director, Asian 
  American Justice Center, Washington, DC, statement.............   215
National Immigration Forum, Washington, DC, proposals............   230
Hong, Chung-Wha, Executive Director, New York Immigration, 
  Coalition, New York, New York, statement.......................   257
SIREN, Vanessa Sandoval, Policy Advocacy Program Director, San 
  Jose, California:
    Statement....................................................   264
    Maria, undocumented immigrant, statement.....................   265
    Marx Reyes, U.S. Citizen, statement..........................   266
    Belen Verdusco, U.S. Citizen, statement......................   268
    Angelina Mendoza, U.S. Citizen, statement....................   269
    Cristal Ortiz, undocumented student..........................   270
Summers, Toussaint E., Chief, Herndon Police Department, Herndon, 
  Virginia, joint letter.........................................   271
Sweeney, John J., President, American Federation of Labor and 
  Congress of Industrial Organizations, Washington, DC, statement   272
Wylde, Kathryn, President and CEO, Partnership for New York City, 
  New York, New York, letter and attachment......................   277


    COMPREHENSIVE IMMIGRATION REFORM IN 2009: CAN WE DO IT AND HOW?

                              ----------                              


                        THURSDAY, APRIL 30, 2009

                                       U.S. Senate,
                               Subcommittee on Immigration,
                              Refugees, and Border Security
                                Committee on the Judiciary,
                                                     Washington, DC
    The Subcommittee met, pursuant to notice, at 2:04 p.m., in 
room SD-226, Dirksen Senate Office Building, Hon. Charles E. 
Schumer, Chairman of the Subcommittee, presiding.
    Present: Senators Schumer, Feinstein, Whitehouse, Cornyn, 
and Kyl.

 OPENING STATEMENT OF HON. CHARLES E. SCHUMER, A U.S. SENATOR 
                   FROM THE STATE OF NEW YORK

    Chairman Schumer. The hearing will come to order, and first 
I would ask unanimous consent that Chairman Leahy's and Senator 
Kennedy's opening statements be read into the record, without 
objection.
    And, second, we will have a vote, I believe, at 
approximately 2:30, so we will have to take a brief break then 
to allow people to vote. I am also going to allow any of the 
members who are here to give opening statements. That is not 
usually the practice, but I think this is an important issue 
and it would be fair to do that. And I want to thank our 
witnesses for being here.
    Now, before we begin today's business, I would like to take 
the opportunity to recognize the remarkable leadership that my 
predecessor--Senator Kennedy--has provided to this 
subcommittee.
    For the last 46 years, Senator Kennedy has been at the 
forefront of every major immigration debate in this country as 
a member, Chairman, or Ranking Member of this Subcommittee.
    I am sure I speak for my colleagues on both sides of the 
aisle when I say that no Senator has worked harder or 
contributed more to the immigration conversation than Senator 
Kennedy, and we all sincerely thank him for his leadership.
    Now, since I became Chairman of this Subcommittee in 
February, I am often asked the question that we hope to answer 
today: ``Can we achieve significant immigration reform in this 
session and, if so, what would this reform look like?'' That is 
the question that many people are asking.
    Now, people only need to pick up a newspaper or turn on 
their televisions to see many stories quoting Washington 
insiders and political pundits who say it is bad politics to 
even discuss immigration reform at a time when America is 
facing such serious economic challenges.
    But these articles do not report what I am hearing in my 
conversations with Americans. No one is happy with our current 
system, whether they are left, right, or center. There is 
recognition in America that the status quo is clearly not 
working. Indeed, recent polls show that 57 percent of Americans 
believe that immigration reform should be a high priority for 
this Congress. The politics may be hard, but the reality is 
obvious: It is in everyone's best interest to change and fix 
our current immigration system.
    And it is, therefore, my belief that we can and must try to 
find a way to enact significant improvements to our immigration 
system now.
    So how do we get from here to there?
    From my perspective, it is time to tone down the rhetoric, 
focus on the facts, and carefully weigh what is in the best 
interests of our taxpayers, our economy, our security, and our 
future.
    That is the spirit in which we have called today's hearing 
and the spirit in which we can conduct our considerations 
moving forward.
    It is my belief that the American people are pro-legal 
immigration and anti-illegal immigration. It is my belief that 
the American people are not afraid of an immigration system 
that is both tough and fair. They want an immigration system 
that both faces up to reality and respects the rule of law. 
They want an immigration system that will stop the flow of 
illegal immigrants and respect legal immigrants who want to 
work, pay taxes, remain in this country, and become citizens.
    That is what I want, too, and I believe that is what the 
majority of my colleagues here in the Senate want.
    But make no mistake: We cannot restore confidence in our 
immigration system until and unless we face up to reality, put 
ideology aside, and find solutions that will work to address 
the situation in which we find ourselves today.
    I am hopeful that we can find solutions because a well-
functioning immigration system is not only a part of America's 
legacy; it is also critical to our country's future.
    The Founding Fathers never intended for America to close 
the door to new Americans, and in each generation since the 
birth of our country, we have accepted the most determined and 
idealistic people from everywhere in the world. And we have 
been stronger for it.
    Because of immigration, Google, Yahoo, Intel, and eBay are 
American success stories. In New York, one-quarter of all 
businesses are immigrant owned. According to the U.S. Census 
Bureau, these immigrant-owned businesses have combined sales of 
$42.7 billion and employ 230,000 workers, some of whom are 
immigrants themselves and some of whose families have been in 
this country for 12 generations.
    Nationally, 40 percent of patents in the U.S. are awarded 
to immigrants. And a recent study found that immigrants are 50 
percent likelier to start businesses than native-born citizens. 
New inventions and startup businesses are critical to improving 
our economy, and as the numbers tell us, immigrants play a 
vital role in both of these areas.
    Given the very high stakes in whether and how we move 
forward on the issue of immigration, we have invited a broad 
spectrum of our country's finest and most distinguished leaders 
to share their wisdom and experience, and we thank you for 
coming.
    These individuals come from a broad array of disciplines 
and offer vastly diverse perspectives regarding immigration 
based on their training and their area of expertise.
    These distinguished witnesses will tell us whether they 
agree that comprehensive immigration reform is necessary and 
should be enacted in 2009. They will also help us determine 
what a reformed system might look like.
    As we go forward with this hearing today and with this 
debate throughout the year, I hope that my colleagues will 
agree to work together to capitalize on areas of consensus 
rather than exploit areas of disagreement.
    For instance, although my colleague the distinguished 
Ranking Member from Texas and I may have some ideological 
differences, we both approach the immigration conversation from 
a common starting point: We are both Senators from border 
States with long and rich histories of welcoming immigrants 
from all over the world. In fact, the Texas seaport at 
Galveston became known as ``the Second Ellis Island.''
    And that is why our discourse on immigration should take 
place with the common understanding that even if we all came to 
America on a different boat--or through some other means--we 
are all in the same boat now.
    So as Chairman of this Subcommittee, I pledge that I will 
work and work and work and work to strike the right balance and 
achieve the critical reforms to our immigration system that the 
American people are asking us to enact. This will be very, very 
hard to do, make no mistake. This is hardly an easy task. But 
we have to try for the sake of the future of our country.
    I am confident that our distinguished panel will move us 
closer toward a pathway to reform, and I look forward with 
great interest to their testimony.
    I now want to recognize the distinguished Ranking Member, 
Senator Cornyn, for an opening statement. We will let any 
member who is here issue an opening statement.
    Senator Cornyn?

STATEMENT OF HON. JOHN CORNYN, A U.S. SENATOR FROM THE STATE OF 
                             TEXAS

    Senator Cornyn. Thank you, Mr. Chairman. I appreciate your 
opening statement. It is one that I would have been quite 
comfortable delivering myself, especially the part about 
Galveston being the second Ellis Island.
    I want to thank all of our witnesses for being here, and I 
am grateful to Chairman Leahy and Senator Schumer for 
initiating once again this important dialog on, I think, an 
absolutely critical issue. No one--no one--benefits from the 
status quo with regard to our immigration situation. I agree 
that legal immigration is something that has made our country a 
better place. It has strengthened our economy. It has forged 
ties of kinship between the United States and our neighbors. It 
renews our national identity as the promised land for families 
in every generation.
    In Texas, as you pointed out, we are a big border State 
where we see and enjoy a lot of cultural diversity. Many of my 
constituents have family on both sides of the Rio Grande River, 
and they are watching very closely the way that we treat this 
debate. And I agree with you it needs to be respectful; it 
needs to be civil; and, most importantly, we need to get 
something done in a practical sort of way and find that common 
ground.
    As I said, the status quo is not acceptable to anyone. 
Texans see and Americans see that our border is not yet secure. 
We see employment verification laws which are not yet enforced. 
And we see millions of men, women, and children who are here in 
violation of our immigration laws who, in essence, are afforded 
no protection from all our other laws. In other words, I think 
the immigrant that comes here without going through our legal 
immigration system finds themselves a victim in so many 
circumstances, whether a woman who is a victim of domestic 
violence is afraid to go to the police because she is afraid of 
being deported, or a worker who is denied fair earnings by an 
employer who says, ``Well, you know, you take what you get or I 
will turn you in to the immigration authorities.'' All down the 
line, I think the biggest victim of the status quo is the 
immigrant who is here living in the shadows and who is in 
noncompliance with our immigration laws.
    Obviously, there is a public health component of our 
immigration system, and so we need to restore one that is 
protective of the public health, as the recent incidents of 
this last week or so have reminded us.
    I believe that an important component of an immigration 
reform system--in addition to border security, in addition to 
employment verification so employers do not have to operate as 
the police officer but, rather, the Government provides them 
the tools to determine whether somebody can legally work at 
their place of employment or not--is a temporary worker 
program. These are essential components of an immigration 
reform bill.
    As a matter of fact, some of this may sound familiar 
because in 2005, Senator Kyl, my distinguished colleague, our 
distinguished colleague from Arizona, and I undertook to 
introduce what we called the ``Comprehensive Border Security 
and Immigration Reform Act of 2005.'' And that has been, 
obviously, 4 years ago.
    Since that time, we have had a number of bills considered 
on the floor, the McCain-Kennedy bill and other iterations of 
that, and I had to go back to check my notes, but I am advised 
we spent 36 business days on the floor of the U.S. Senate 
grappling with this issue. And talking in terms of calendar 
days, that is almost 2 months. And we have not yet gotten the 
job done, and we have to persevere.
    Now, as I said, I appreciate the Chairman calling this 
hearing and the distinguished witnesses we have. I hope this is 
just the beginning of a number of hearings we have so we can 
engage the American people in an essential dialog to work our 
way through this problem.
    If we learned anything about the debate, it is that the 
Washington elites cannot dictate to the American people what 
the solution must be. We have got to work with and listen to 
the American people and see what we can do in order to come up 
with a practical solution to this challenge.
    I welcome the President's announcement that he considers 
immigration reform to be an important subject. I am a little 
discouraged that he seems now to be talking about establishing 
working groups to develop a framework for legislation rather 
than tackling this head on, but I am going to give him the 
benefit of the doubt, and I hope he will tell us, the Congress, 
who must work on this legislation, what his plan is. We know 
what Senator Kyl's and my plan was. We know what Senator McCain 
and Senator Kennedy's plan was. And I think it is essential 
that a President demonstrate the kind of leadership that can 
only come from the President telling us what his plan is so we 
can get them on the table and work our way through them.
    So I want to say again how grateful I am to you, and, 
again, your opening statement, Mr. Chairman, is one that I was 
very comfortable with as well. I believe we must streamline our 
temporary working programs, offer more visas to highly skilled 
students who study at our colleges and universities, and when 
they cannot work here, they go back to their native land and 
they compete with us and create jobs there rather than here in 
the United States. So I think we need a fair but firm solution, 
one that embraces the rule of law and one that creates the kind 
of order that right now in the absence of that order only makes 
life more difficult for people who are living outside of our 
immigration laws.
    Let me close by saying I agree with your comments about 
Senator Kennedy. He has been in the middle of every immigration 
debate for 40 years. As a matter of fact, one of the bills that 
I am proud of is when I got here, Senator Kennedy and I joined 
together to pass, along with our colleagues' help, an expedited 
pathway to citizenship for individuals who are part of our 
United States military. If they are willing to sacrifice and 
serve in our United States military as legal immigrants but not 
yet citizens, I think it is only appropriate that we provide 
them an expedited path to becoming American citizens so they 
can actually have the full benefits of American citizenship for 
a country that they have risked their life to serve.
    So thank you very much, Mr. Chairman. I look forward to 
hearing from our witnesses.
    Chairman Schumer. Well, first let me thank Senator Cornyn. 
We are off to a great start because he agrees with 90 percent 
of my statement and I agree with 90 percent of his statement. 
That is pretty good to start off and I think bodes well for the 
future.
    We are joined by two colleagues who have played very active 
and fundamental, important roles in the immigration debate, and 
I am glad they are here, and I know Senator Cornyn agrees with 
me. We look forward to their active participation and input as 
we move toward a comprehensive solution.
    First, my good friend and colleague, Senator Feinstein from 
California.

  STATEMENT OF HON. DIANNE FEINSTEIN, A U.S. SENATOR FROM THE 
                      STATE OF CALIFORNIA

    Senator Feinstein. Well, thank you very much, Mr. Chairman, 
and I thank the Ranking Member, Senator Cornyn. I agree with 
your statement, and I agree with Senator Cornyn's. I am 
delighted to see the distinguished witnesses here today.
    I was one that participated, as did everyone at this dais, 
when we discussed and debated comprehensive immigration reform. 
And what I learned from that debate was that there is indeed a 
dark side in this country, and that dark side really prefers to 
distort the issue. That dark side really caters to the fear in 
people that if we repair a broken system, that if we develop a 
comprehensive immigration plan that is fair to people, that 
moves people out of the shadows, which uses them in their most 
constructive and productive way, that it is harmful to this 
Nation.
    The point I want to make in my few remarks is the harm that 
is being caused to this Nation by not moving. One small part of 
the bill--it is not a small part; it is a large part--has been 
ag jobs, and I have worked with the growers and workers in the 
agriculture of America in virtually many of the States, and 
here is what I have seen:
    Between 2007 and 2008, 1.56 million acres of farmland have 
been shut down in the United States, no labor. American farmers 
are moving to Mexico. At least 84,155 acres are now in 
production in the Mexican States of Baja, Sonora, and 
Guanajuato. American farmers have moved 22,285 United States 
jobs to Mexico, which means they are all in Mexico to cultivate 
crops varying in diversity from avocado to green onions to 
watermelon.
    Farmers are decreasing the size of their farms and 
switching to less labor intensive and less profitable crops. In 
the next 1 to 2 years, the United States stands to lose $5 to 
$9 billion in agriculture sales to foreign competition if 
Congress does not act.
    As United States farms close and growers downsize 
production, the United States is also becoming more reliant on 
foreign imports of fresh fruits and vegetables--foreign imports 
where the standards on pesticides and farming are not nearly 
what they are today. Let me give you just a few examples.
    In March 2008, Keith Eckel, the largest producer of fresh 
market tomatoes in Pennsylvania, closed down due to a shortage 
of farm workers. In the height of the 7-week summer harvesting 
period, 10,000 tomatoes were picked usually by manual labor at 
Eckel's Lackawanna County farm. His tomato crop was valued at 
$1.5 to $2 million. Last year, he had planted 2.3 million 
tomatoes on 340 acres. Now he is essentially shutting it down 
or greatly reducing it.
    In your own State, Mr. Chairman, New York, 800 farms and 
$700 million of sales may be forced to go out of business or 
scale back their farm operations if labor shortages continue. 
For the first time since 1991, Jim Bittner, the owner of Singer 
farms in Appleton, New York, raised 10 percent of his sweet 
cherry and peach orchards. The labor shortage has forced him to 
switch over to crops that can be harvested by machines.
    Senator Kyl, in your State, in Yuma, Paul Muthart manages 
8,000 acres of production for the Pasquinelli Produce Company. 
His company has been in business for 6 years in a part of the 
State that provides up to 90 percent of the fresh lettuce, 
broccoli, celery, and cauliflower in American grocery stores 
during some winter months. Mr. Muthart is short 20 to 25 
percent of the labor force he needs.
    Colorado farmers estimate that the State's fruit and 
vegetable industry will disappear in the next 5 to 10 years.
    Now, California farmers produce half of America's fruits, 
vegetables, and nuts and a quarter of the Nation's dairy. The 
California ag industry is estimated to lose between $1.7 to 
$3.3 billion in the next year without a stable supply of labor.
    Now, I have heard those who say go out and have Americans 
do the work, and we would all be delighted to have Americans do 
the work. But the fact is they will not.
    In California, we put notices in every welfare department: 
``Ag Jobs Available. Please Come.'' How many people came? None.
    So this is highly skilled in the sense of it is back-
breaking, it takes certain techniques, we have a lot of row 
crops, and the people who do this work are, by and large, 
undocumented. And they cannot do it now. So the industry is 
collapsing.
    In my State alone, we have fallowed a half a million acres. 
We now have dust storms that necessitate the closure of I-5 
from dust.
    This is not the way it should be. We have farmers in bread 
lines. This is not the way it should be. And so we need this 
program that will get a stable and continuing supply of labor. 
This is the ag jobs bill.
    Now, right now I should tell you that there is a difference 
between workers and growers on the H-2A part of the bill. I 
have offered to both sides to negotiate that difference and try 
to put it together, and as soon as I do, we will be introducing 
the ag jobs bill, which I think will fit nicely into whatever 
hopefully this Subcommittee will do. So thank you very much.
    Chairman Schumer. We look forward to your leadership on 
that issue, Senator Feinstein.
    Senator Kyl.

  STATEMENT OF HON. JON KYL, A U.S. SENATOR FROM THE STATE OF 
                            ARIZONA

    Senator Kyl. Thank you very much, Mr. Chairman, and I think 
it is interesting that the four of us mostly agree with 
everything that each of us has said. Certainly all of the 
comments regarding agriculture that Senator Feinstein just made 
apply, as you noted, to Arizona as well--not quite as much 
agriculture in Arizona, but many of the same conditions, and we 
face the same problem.
    Senator Feinstein. Can I make you a cosponsor of the bill?
    [Laughter.]
    Senator Kyl. We are not going to solve the problem 
piecemeal, and therein is perhaps the first lesson for all of 
us in this room. My growers well understand my commitment to 
resolving the problem for them.
    We just had an announcement by two major labor unions in 
the country that they would not support a temporary worker 
program. We are going to have to get around that problem--well, 
we are not going to have to get around it. We are going to have 
to solve it if we are to have the kind of success with the kind 
of bill that Senator Feinstein noted. So it illustrates the 
difficulty of the problem. We both totally agree on the need to 
solve both this agricultural issue but also, frankly, in both 
of our States and in others, you have got the home-building 
industry, which relied extensively on illegal immigrants. The 
industry itself acknowledged that. And there are many other 
industries as well, certainly the hospitality industry and many 
others. Now, times are not as good now, and so the pressure is 
not on as much in those industries. But it is every bit as much 
still, the pressure on, in the agricultural industry.
    What I want to do is just briefly note--and, frankly, 
Senator Feinstein's question makes the point--that since the 
comprehensive immigration reform, which we spent hundreds of 
hours on--and certainly Senator Kennedy is to be complimented 
for his sitting through every one of those meetings as well--
there were many complicated provisions that were the result of 
compromise. One could identify four specific ones, though each 
of us had a little different view as to what the most important 
provisions were. But I support eroding on at least three of 
these four, and that is the primary point that I wanted to 
make. We have got to deal with this reality.
    I mentioned the temporary worker provision. That was part 
of the key of the legislation. Support for that appears to be 
eroding, at least with respect to organized labor, and yet it 
is a critical component to any successful bill, and not just 
for agriculture.
    The path to citizenship, we all know what happened to that. 
It became amnesty and was probably the most specific reason why 
the comprehensive immigration legislation went down.
    There was a very innovative provision that was, frankly, 
one of the key reasons why there was strong support, especially 
on the Republican side, and that was revising our immigration 
laws to be more reflective of the trend occurring worldwide, 
which is more of an emphasis on workforce requirements rather 
than family or chain migration. Interestingly, America still 
would have had about 50 percent family immigration, more than 
most other countries--in fact, I think more than any other 
country. But that was a big part of the reform as well with a 
lot of emphasis on the so-called stem migrants, the high-tech- 
related folks.
    And, finally, employer verification. As Senator Cornyn 
mentioned, we cannot even get a full year of authorization of 
the E-Verify program now. These were all essential elements of 
the bill last time, and I see support eroding across the board. 
So we are going backward, not forward. We have to find a way to 
come back together to put that kind of a bill together, or 
something totally different that I cannot quite conceive of.
    I just want to close with this point. Senators McCain and 
Lieberman and I just had a hearing a few days ago in Arizona 
related to the fact that we have not controlled the border yet 
and that it is dramatically impacting my State of Arizona, but 
others as well, not so much with respect to illegal immigration 
today, but the crime and drugs violence part of this. We have 
always known that about 10 to 15 percent of the people 
illegally immigrating across the southern border were 
criminals. And if you have a million illegal immigrants, that 
is 100,000, at least, people we do not want in this country. So 
there are reasons to secure the border other than relating to 
illegal immigration.
    But we are all aware of the crime associated with the drug 
cartels in Mexico. With over half of the illegal immigration 
coming through my State, and much of that drug trade now 
resulting in violence in my State, this has become an 
extraordinarily important problem to solve. And as the police 
chief testified at the hearing, almost all of the crime is 
illegal immigrant on illegal immigrant, with women being raped, 
people being kidnapped, more ransom being sought, drug 
violence, murder of people within the cartels and all the rest 
of it. So we have got a huge problem to solve.
    And as my colleague John McCain said during the campaign 
when this was a very political hot potato, he said, ``Those of 
us who supported comprehensive immigration reform learned a 
lesson. People want us to secure the border and enforce the law 
before they are going to have an open mind about comprehensive 
reform.'' Unfortunately, sadly, we still do not have that 
border under control, as is evident by the hearing that we held 
a few days ago.
    So we have a lot of challenges ahead of us. Those of us who 
supported comprehensive immigration reform the last time around 
have a lot of challenges in front of us, and I appreciate the 
witnesses who are here today to help us work through those 
challenges. And I urge everybody in the audience and others who 
care about this issue to approach it in the spirit of good will 
that I believe it was my colleague Senator Feinstein said would 
be needed for us to get this resolved.
    Thank you, Mr. Chairman.
    Chairman Schumer. Well, thank you, Senator Kyl, and I am 
hardly unaware of the challenges that you put forward. They are 
all legitimate challenges. I do think there are potential ideas 
and solutions out there that I have, others have, and I think 
we can do it. I do. Anyway, we are going to try.
    Now, we have a vote at 2:45, so what I think I would like 
to do so we could move things along, we will have our first 
witness, Chairman Greenspan, give his testimony, and then we 
will probably break and resume about 15 minutes later, if that 
is OK with all of our witnesses. So let me introduce Chairman 
Greenspan, and I will introduce the others after the break.
    Although he needs no introduction, Alan Greenspan is an 
economist who served as Chairman of the Federal Reserve System 
of the United States from 1987 to 2006. He currently works as a 
private adviser and consultant for firms throughout the United 
States through his company, Greenspan Associates, LLC. He is 
the author of the book ``The Age of Turbulence: Adventures in a 
New World'' in which he addresses, among other things, the 
relationship between immigration and the American economy.
    Chairman, we really appreciate your taking the time to be 
here, and we look forward to your testimony.

   STATEMENT OF ALAN GREENSPAN, ECONOMIST, FORMER CHAIRMAN, 
             FEDERAL RESERVE SYSTEM, WASHINGTON, DC

    Mr. Greenspan. Thank you very much, Mr. Chairman.
    Chairman Schumer. If you could just pull the microphone a 
little closer to you, I think that would work better.
    Mr. Greenspan. I appreciate this opportunity to testify 
before you this afternoon.
    Immigration to the United States slowed markedly with the 
onset of the current economic crisis. But as the crisis fades, 
there is little doubt that the attraction of the United States 
to foreign workers and their families will revive. I hope by 
then a badly needed set of reforms to our Nation's immigration 
laws will have been put in place.
    There are two distinctly different policy issues that 
confront the Congress. The first is illegal immigration, of 
course. The notion of rewarding with permanent resident status 
those who have broken our immigration laws does not sit well 
with the American people. In a recent poll, two-thirds would 
like to see the number of illegals decreased.
    But there is little doubt that unauthorized--that is, 
illegal--immigration has made a significant contribution to the 
growth of our economy. Between 2000 and 2007, for example, it 
accounted for more than a sixth of the increase in our total 
civilian labor force. The illegal part of the civilian labor 
force diminished last year as the economy slowed, though 
illegals still comprised an estimated 5 percent of our total 
civilian labor force. Unauthorized immigrants serve as a 
flexible component of our workforce, often a safety valve when 
demand is pressing and among the first to be discharged when 
the economy falters.
    Some evidence suggests that unskilled illegal immigrants--
almost all from Latin America--marginally suppress wage levels 
of native-born Americans without a high school diploma and 
impose significant costs on some State and local governments.
    However the estimated wage suppression and fiscal costs are 
relatively small, and economists generally view the overall 
economic benefits of this workforce as significantly 
outweighing the costs. Accordingly, I hope some temporary 
worker program can be crafted.
    The second policy issue that must be addressed by Congress 
is the even more compelling need to facilitate the inflow of 
skilled foreign workers. Our primary and secondary school 
systems are increasingly failing to produce the skilled workers 
needed to utilize fully our ever more sophisticated and complex 
stock of intellectual and physical capital. This capital stock 
has been the critical input for our rising productivity and 
standards of living and can be expected to continue to be 
essential for our future prosperity. The consequence of our 
educational shortfall is that a highly disproportionate number 
of our exceptionally skilled workers are foreign born. Two-
fifths of the science PhDs in our workforce, for example, are 
foreign born. Silicon Valley has a remarkably large number of 
foreign-born workers. And as you, Mr. Chairman, have pointed 
out, 40 percent of our patents are issued to those who are 
foreign born.
    The quantity of temporary H-1B visas issued each year is 
far too small to meet the need, especially in the near future 
as the economy copes with the forthcoming retirement wave of 
skilled baby boomers. As Bill Gates, the chairman of Microsoft, 
succinctly testified before Congress in March 2007, ``America 
will find it infinitely more difficult to maintain its 
technological leadership if it shuts out the very people who 
are most able to help us compete.'' He added that we are 
``driving away the world's best and brightest precisely when we 
need them most.''
    Our skill shortage, I trust, will ultimately be resolved 
through reform of our primary and secondary education systems. 
But, at best, that will take many years. An accelerated influx 
of highly skilled immigrants would bridge that gap and, 
moreover, carry with it two significant bonuses.
    First, skilled workers and their families form new 
households. They will, of necessity, move into vacant housing 
units, the current glut of which is depressing prices of 
American homes. And, of course, house price declines are a 
major factor in mortgage foreclosures and the plunge in value 
of the vast quantity of U.S. mortgage-backed securities that 
has contributed substantially to the disabling of our banking 
system.
    The second bonus would address the increasing concentration 
of income in this country. Greatly expanding our quotas for the 
highly skilled would lower wage premiums of skilled over lesser 
skilled. Skill shortages in America exist because we are 
shielding our skilled labor force from world competition. 
Quotas have been substituted for the wage pricing mechanism. In 
the process, we have created a privileged elite whose incomes 
are being supported at noncompetitively high levels by 
immigration quotas on skilled professionals. Eliminating such 
restrictions would reduce at least some of the income 
inequality.
    If we are to continue to engage the world and enhance our 
standards of living, we will have to either markedly improve 
our elementary and secondary school systems or lower our 
barriers to skilled immigrants. In fact, progress on both 
fronts would confer important economic benefits.
    Immigration policy, of course, is influenced by far more 
than economics. Policy must confront the very difficult issue 
of the desire of a population to maintain the cultural roots 
that help tie a society together. Clearly a line must be drawn 
between, on the one hand, allowing the Nation to be flooded 
with immigrants that could destabilize the necessary comity of 
a society and, on the other hand, allowing the Nation to become 
static and bereft of competition and as a consequence to lose 
its economic vitality.
    The United States has always been able eventually to absorb 
waves of immigration and maintain its fundamental character as 
a Nation, particularly the individual rights and freedoms 
bestowed by our Founding Fathers. But it must be conceded that 
the transitions were always more difficult than hindsight might 
now make them appear.
    In closing, Mr. Chairman, I would like to concur with 
President Bill Clinton's view of our immigration history as 
expressed in remarks of more than a decade ago: ``America has 
constantly drawn strength and spirit from wave after wave of 
immigrants....They have proved to be the most restless, the 
most adventurous, the most innovative, the most industrious of 
people.''
    We as a Nation must continue to draw on this source of 
strength and spirit. To do so, in the context of a rapidly 
changing global economy, our immigration laws must be reformed 
and brought up to date.
    Thank you, Mr. Chairman. I look forward to your questions.
    [The prepared statement of Mr. Greenspan appears as a 
submission for the record.]
    Chairman Schumer. Thank you, Chairman Greenspan.
    Since we do have a little time, I think we will call on Mr. 
Manger, Chief Manger, to testify. He is the Chief of the 
Montgomery Police Department, Montgomery County, one of the 
largest in Maryland, with more than 1,200 sworn and 550 
civilian members serving 950,000 residents in the Greater 
Washington, D.C., Metropolitan Area. Chief Manger is a member 
of the International Association of Chiefs of Police and serves 
as Chairman of Legislative Committee of the Major Cities Chiefs 
Association.
    Thank you for coming, Chief Manger, and we look forward to 
your testimony.

  STATEMENT OF J. THOMAS MANGER, CHIEF OF POLICE, MONTGOMERY 
  COUNTY, MARYLAND, AND CHAIRMAN OF LEGISLATIVE COMMITTEE OF 
      MAJOR CITIES CHIEFS ASSOCIATION, ROCKVILLE, MARYLAND

    Chief Manger. Mr. Chairman, members of the Committee, thank 
you for allowing me to speak on this important issue. I am 
speaking on behalf of the Major Cities Chiefs Association, 
which is comprised of the 56 largest police departments in the 
United States.
    Let me begin by stating that the failure to secure our 
borders has resulted in significant consequences for local 
governments. And while I am here to focus on the impacts to 
local law enforcement, it is important to keep in mind the 
overwhelming impact it has had on local school systems as well 
as health and human services agencies. Education, social 
services, and health care are all impacted as much if not more 
than public safety.
    With regard to the role that immigration issues play within 
the law enforcement community, I will focus my comments 
primarily on illegal immigration and the consequences of having 
millions of undocumented residents living in our cities and 
towns.
    The first thing that any police chief would want you to 
know is that all individuals--regardless of citizenship--are 
entitled to basic rights and privileges set forth in the 
Constitution of the United States.
    Indeed, every police chief in this nation would, I hope, 
tell you that all persons--regardless of citizenship--have a 
right to expect police service and protection whenever and 
wherever they need it. And herein lies one of the compelling 
reasons for comprehensive immigration reform: It is 
tremendously challenging to deliver police service to a 
community of people who are afraid to have any contact with the 
police. The results are an increase in unreported crime, 
reluctant victims and witnesses, and the targeting of 
immigrants by criminals because the bad guys know that many 
immigrants will not call the police. It is imperative that we 
find a way to bring these people out of the shadows so that 
they can get the service they need and deserve.
    In addition to the over-representation of our immigrant 
population as crime victims, the presence of large numbers of 
undocumented residents adds significantly to local government 
budgets and increases the workload for public safety. I will 
highlight some examples.
    First, an increase in gang activity. Each one of us in our 
youth wanted to feel as though we were a part of something and 
that we were among people who cared about us. For many of us, 
sports and recreation, church, school, and family fulfilled 
those needs. But for any 13-year-old boy thrown into a school 
and a neighborhood where he knows no one, unable to speak 
English, with little or no parental involvement because his 
parents are working three jobs, criminal street gangs offer 
that boy everything he wants. Again, allowing that family to 
come out of the shadows gives that boy access to more 
opportunities and healthier choices.
    Police are also struggling with a rise in the crimes of 
identity theft and other types of fraud. Until just a few weeks 
ago, when the Maryland General Assembly changed the law, 
Maryland did not require proof of citizenship before issuing a 
driver's license. Consequently, undocumented residents from all 
over the East Coast submitted fraudulent information and 
obtained a Maryland driver's license.
    Police departments are also seeing an increase in human-
trafficking cases, hate crimes, and cases involving 
unscrupulous employers not paying their laborers. Many 
categories of crimes would be favorably impacted by immigration 
reform.
    Perhaps the most significant reason to enact immigration 
reform is to allow police departments all over this Nation to 
get out from being placed squarely in the middle of a huge 
problem with which we have little to no control over the 
solution.
    The number of undocumented residents has grown tremendously 
in the past 15 years. In fact, 15 years ago, outside of a few 
border cities, I doubt any police chief would have mentioned 
illegal immigration as even an issue. But today, illegal 
immigration has affected our budgets, our workload, and most 
significantly our trust and confidence levels in the community.
    Police find themselves trying to respond to pressures from 
the community and elected officials who have extremely diverse 
viewpoints on the police department's role in enforcing 
immigration law. This issue has polarized our communities.
    Municipalities have chosen a range of managing this issue. 
Some are proud to be called ``sanctuary jurisdictions'' where 
not only does local law enforcement not inquire about one's 
immigration status but those jurisdictions also will not honor 
nor serve warrants from the Immigration and Customs Enforcement 
agency. On the other end of the spectrum, some jurisdictions 
have adopted policies that prohibit government services going 
to undocumented individuals, and they have elected also to 
participate in the Federal 287(g) training.
    Most jurisdictions have adopted policies somewhere between 
the two approaches I have just described. The overwhelming 
majority of major city police agencies have elected not to 
participate in the 287(g) training, primarily because it 
undermines the trust and cooperation with immigrant communities 
that are essential elements of community policing.
    One of the realities is that public safety increases when 
people have trust and confidence in their police department. 
Delivering fair and consistent police service to all crime 
victims has to be a priority.
    A second reason that most jurisdictions cannot become the 
immigration police is that local agencies do not possess 
adequate resources to enforce these laws in addition to the 
added responsibility of homeland security. Enforcing Federal 
law is an unfunded mandate that most agencies just cannot 
afford to do.
    In addition, immigration laws are very complex, and the 
training required to understand them would significantly 
detract from the core mission of the local police to create 
safe communities.
    Prior to a few years ago, enforcing immigration law was 
solely a Federal responsibility. It was a specialty like tax 
law. If the Federal Government comes to the conclusion someday 
that too many people are tax evaders, will the solution be to 
authorize local police to enforce tax laws? This is certainly 
contrary to our mission.
    The bottom line remains: Local law enforcement needs to 
work closely with all of our Federal partners, but we cannot do 
their job for them.
    Let me conclude by making the most important point of my 
testimony. No matter what you do, Mr. Chairman, you cannot 
solve this complex issue if we do not find a way to stop the 
buildup of another group of undocumented residents. Securing 
our borders must be a top priority. Let us find a way to align 
the labor needs in our country with a sensible immigration 
policy. Let us bring these members of our community out of the 
shadows and allow them to make a better life for their family.
    Let us target those undocumented residents with criminal 
records. Those individuals with criminal histories should find 
no safe harbor, no sanctuary. And, Mr. Chairman, I urge you to 
use your influence with the Attorney General of the United 
States to remove civil immigration detainers from the NCIC data 
base. Do not force local law enforcement officers to become the 
immigration police.
    And, finally, consulting with and involving local police 
when developing any immigration initiative is imperative if 
this initiative somehow involves or affects local law 
enforcement. It is imperative that Congress work with the 
President to enact comprehensive immigration reform. Done 
right, our country will only become stronger.
    [The prepared statement of Chief Manger appears as a 
submission for the record.]
    Chairman Schumer. Well, thank you, Chief Manger, for your 
excellent testimony.
    I apologize to Dr. Hunter and Mr. Moseley. We will be back 
shortly and resume what is, I think, excellent witnesses and 
great testimony to get us started on this major issue.
    The Committee is temporarily in recess.
    [Recess 2:51 p.m. to 3:24 p.m.]
    Chairman Schumer. OK. The hearing will resume, and we 
apologize. We do not expect more votes for quite a while, so I 
think now we will be able to run through, and I want to welcome 
our next witness. We are truly honored to have him here. Dr. 
Joel Hunter--and I just want to say he went out of his way and 
changed his schedule because he cares so much about this, and 
the whole Committee really appreciates that, Dr. Hunter.
    Everyone knows him. He is the senior pastor of Northland. 
It is a Church Distributed in central Florida. He is one of 
America's leading conservative evangelical voices, heads a 
congregation of more than 12,000 members, which I would say 
even for New York City that is a large number of congregants.
    On February 5, 2009, he was appointed to the President's 
Advisory Council on Faith-Based and Neighborhood Partnerships, 
which will advise President Obama on substantive policy issues, 
including interfaith relations, strengthening the roles of 
fathers in society, and reducing the number of abortions.
    It is an honor to have you here, Dr. Hunter. Thank you for 
being here.

STATEMENT OF JOEL C. HUNTER, SENIOR PASTOR, NORTHLAND, A CHURCH 
DISTRIBUTED, AND MEMBER, PRESIDENT'S ADVISORY COUNCIL ON FAITH-
     BASED AND NEIGHBORHOOD PARTNERSHIPS, LONGWOOD, FLORIDA

    Reverend Hunter. Well, thank you, Chairman Schumer, and 
thank you for the work you did in getting me here. And thank 
you, Senator Cornyn and other esteemed colleagues on this 
panel, for providing me with the opportunity to speak on the 
moral and religious reasons for immigration reform.
    I am one of hundreds of thousands of local religious 
leaders in this country. I have been a pastor for almost 40 
years, and that is what I want to be for all my years 
remaining. And even though I am also in leadership positions of 
national and international groups that are dealing with 
immigration, it is at the local level that I am continually 
reminded that policy truly does hurt or help people.
    In my faith tradition, we all start as strangers and 
aliens, outsiders to the commonwealth of God. But because we 
have a God who was willing to do what it took to include us, at 
great personal cost, we ``are no longer strangers and aliens, 
but [we] are fellow citizens,'' the Bible says.
    So I find it a high honor to speak to those in power as an 
advocate for those who have no power. In a verse that would be 
echoed in many religions, Proverbs 31:8 commands us to ``Speak 
up for those who cannot speak for themselves.''
    The hope of any religion is that those who have been on the 
wrong path can be set on the right path. The need for 
comprehensive immigration reform is to create a path that will 
help people do the right thing. A broken system produces a 
dysfunctional society, fractured families, and it increases the 
vulnerability of both legal and illegal residents. It helps 
criminals who thrive in the shadows and it harms decent people, 
consigning them to a life of insecurity, hiding, and minimal 
contribution to the general welfare.
    A broken system produces both broken and crooked people. 
The cost to our Nation in terms of productivity, national 
unity, and national security is depressing. But it does not 
compare to the damage being done to individuals and families.
    Broken systems tempt many to predatory practices. I cannot 
count the stories I have heard about attorneys taking the 
entire life savings of undocumented workers, producing no 
results, and then abandoning those workers when the money was 
gone. Is that typical of the profession? We would not believe 
so. But ``lead me not into temptation.'' It is a mighty 
temptation to de-prioritize those who are desperate and too 
intimidated to raise their voices to complain. And what about 
employers who take advantage of the powerless because there is 
no system of accountability?
    Or the bureaucrats who have no incentive to produce 
results--or even to keep track of the paperwork--because, who 
will know? Or the talk show hosts that increase their fame and 
fortune by picturing those without the proper papers only as 
conniving and dangerous parasites instead of persons made in 
the image of God, deserving both respect and help to do the 
right thing? We are producing cottage industries of 
exploitation. We are also hearing millions of stories that are 
the opposite of the American dream.
    My friend Reverend Silas Pintos tells of a family in his 
Hispanic congregation that came from England. Both the husband 
and wife were successful business people, and they hoped that 
in the U.S. their children would be immersed in a better 
environment for family values. So they came to start an 
alternative energy company. After a 2-year ordeal with the 
immigration system and absurd legal fees, the immigration 
department could not even clearly explain to them why their 
residency application had not gone through. They returned to 
England emotionally and financially devastated.
    My friend Imam Mohammed Musri told me the wife of a 60-
year-old man in his congregation was very sick. The man had 
papers, but when the attorney handling his case took a 
judgeship, the man was not told he needed to re-register. He 
was deported even though his wife was too sick to go with him. 
She was hospitalized and died without him because he could not 
get back into the country to be by her side.
    Pastor Augustine Davies is on the staff at my church. He 
and his wife are from Sierra Leone and have just completed the 
long and arduous task of becoming citizens, but they have 
special relationships with many of the Africans inside and 
outside our congregation who are caught in the system. One of 
them is George.
    George is from Liberia, West Africa. He is married and has 
four adult children who live in poverty back in his home 
country. When George arrived, the INS approved the refugee for 
temporary protection status. George completed a nursing program 
and got a job. He was turned down for TPS renewal, but now 
George feels the almost crushing pressure of providing for his 
family and other countrymen who need the money he can send to 
them because of his job. He stays in the shadows for now. I do 
not agree with what he is doing, but I know his present life is 
because he loves his family, not because he is out for himself.
    Our immigration system can also intimidate congregations as 
well as individuals and families. My friend Rabbi Steven Engel 
told me that his congregation had sponsored a family from 
Argentina to come to the U.S. The INS lost the paperwork many 
times. They made regular visits to the synagogue, suspicious 
that the congregation might be doing something wrong. The whole 
process was so stressful and unwelcoming that when Sergio died 
from a heart attack at the age of 43, the remaining family 
returned to Argentina.
    These stories and many others do not live up to the ideals 
of our country. We can do better, and we know it. Everyone is 
frustrated with the present system. Our immigration system in 
many cases has us echoing the words of the despairing saint who 
proclaimed,
    ``I am not practicing what I would like to do, but I am 
doing the very thing I hate.''
    The urgency for immigration reform that yields efficiency 
and compassion cannot be overstated because it is so overdue.
    Some of the central principles that comprise most major 
religions are also woven into our country's history and can be 
used as a standard for immigration reform.
    These principles deem each person as valuable, ``endowed by 
their Creator'' with a dignity that transcends earthly 
circumstance. Therefore, our system must treat each person 
respectfully.
    They acknowledge the family as the bedrock of personal and 
social development, and the support of the family as the 
foundation of a strong society. Therefore, our system should 
prioritize the family.
    They see law as not only necessary for restraining evil, 
but as needed for structuring healthy relationships. It is 
right that wrongdoers are restrained and/or punished, but it is 
a better justice when the laws yield correction and the 
redemption of bad circumstances.
    Therefore, our system should have ways to choose to live 
upright lives after the penalties for wrong decisions. So most 
people of faith are hoping for policies that will prioritize 
family togetherness, respect for the law, personal 
productivity, and compassion for those who are most helpless.
    We do not envy you your charge. Immigration reform is a 
morally complex and a politically explosive challenge. But many 
of us are praying earnestly for you, and we are seeking God's 
wisdom in this matter.
    Including the stranger is not just a matter of compassion 
but a necessity for greatness.
    Loving your neighbor as you love yourself is not only a 
moral commandment but a path to national nobility. If we can 
build a nation of families and support networks that not only 
help the marginalized to be successful, but help the successful 
to be helpful, then we can better live up to our potential as a 
people.
    In the end, I believe our Nation will not be judged by the 
productivity of our budgets or the genius of our laws or even 
the earnestness of our faith communities. We will be judged, 
both by history and by God, by the way we have treated people, 
especially those who needed our help.
    [The prepared statement of Reverend Hunter appears as a 
submission for the record.]
    Chairman Schumer. Dr. Hunter, I want to thank you for those 
moving and powerful words. And we are going to send your 
testimony and some of the others to all of our colleagues. It 
was really terrific.
    Our next witness, thank you for your patience in waiting, 
Mr. Moseley. Our next witness is Jeff Moseley. He is the 
President and CEO of the Greater Houston Partnership. The 
partnership facilitates corporate relocations and expansions in 
the Houston area, international outreach initiatives such as 
business development missions outside the U.S. in foreign trade 
delegations, and strategic planning. Prior to joining the 
partnership, Mr. Moseley was the CEO of the Office of the 
Governor for Economic Development and Tourism, a position he 
held from 2003 to 2005. And since you are Senator Cornyn's 
constituent, maybe he would like to add a word of introduction.
    Senator Cornyn. Well, Mr. Chairman, thank you for allowing 
me to ask Mr. Moseley to come up and testify today. There is 
great interest, as I indicated in my opening remarks, about 
this subject across the board. The chief talked about impact on 
local governments, and certainly we see that not only in law 
enforcement but also in our hospitals and health care system. 
It is a matter of finding skilled workers for jobs where we 
lack skilled workers, and we need to fix this system. And Mr. 
Moseley has made it his job, along with those of the Greater 
Houston Partnership, to try to come up with good solutions and 
ideas for us. And so I am delighted he could be here with us 
today and share some of his ideas with us.
    Thank you.

   STATEMENT OF JEFF MOSELEY, PRESIDENT AND CHIEF EXECUTIVE 
      OFFICER, GREATER HOUSTON PARTNERSHIP HOUSTON, TEXAS

    Mr. Moseley. Thank you, Senator Cornyn, Chair Schumer, and 
members of this Committee. It is a delight to be able to bring 
a few remarks to you this afternoon, and I thank you for your 
leadership and for your commitment to reforming America's 
immigration laws. And even though, as we have talked earlier, 
we may not always agree on specific legislative proposals, I am 
most grateful to each of you as members of this Committee for 
continuing this conversation that Senator Kennedy initiated 
with the American people so many years ago.
    By way of introduction, the Greater Houston Partnership is 
a business association whose membership represents more than 
$1.6 trillion in annual revenues. Our organization seeks to 
represent a grass-roots voice for business and industry in this 
immigration reform dialog, and it is a voice that we know has 
been missing from the debate. We have witnessed most recently 
the two failed attempts to pass immigration reform. Arguably, 
the business community bears some responsibility, Chairman, for 
these failures by standing on the sidelines.
    The intent of the 1986 Immigration Control and Reform Act 
was to make employers responsible for verifying the legality of 
their workforce. However, the current system by which employers 
determine worker authorization is actually no better than the 
Social Security card, which is still printed on a low-cost 
basis and, quite frankly, has not been upgraded in any fashion 
since it was begun back in the 1930's.
    We would also argue that there must be a strong balance 
between securing our borders and safeguarding our prosperity, 
to echo Chair Greenspan's testimony.
    The Greater Houston Partnership recognizes the need to 
secure our borders. We also support immigration reform that 
will allow employers, through an efficient temporary worker 
program, to recruit skilled and unskilled immigrant workers 
when there is a shortage of domestic workers. We also believe 
there is need to provide a process for legal status for 
qualified, screened undocumented migrant workers that are now 
in the country.
    The Greater Houston Partnership further believes that 
employers should be responsible for verifying the legal status 
of those they hire. And to this end, we support the creation of 
a very fast, reliable employment verification system. However, 
we would also add that we oppose laws that would increase civil 
and criminal penalties on employers without providing viable 
legal options for hiring skilled and semi-skilled workers.
    The partnership's task force on this issue actually thought 
we should go further, and this led to the creation of a 
nonprofit organization called ``Americans for Immigration 
Reform.''
    Chairman and members, the purpose of Americans for 
Immigration Reform is very simple, and that is, is to build a 
broad, grass-roots national coalition that favors immigration 
reform.
    Last year, Americans for Immigration Reform commissioned a 
major study on the economic impact of undocumented workers, and 
this will sound similar to what Mr. Greenspan talked about. The 
Perryman study, available at Houston.org and 
AmericansforImmigrationReform.org, states it this way--and, 
quite frankly, if you think that subprime mortgages and the 
freezing of credit markets and high-priced energy have a 
chilling effect on our economy, the Perryman study concluded 
that if all undocumented workers were removed from the United 
States economy, the immediate effect would be the loss of some 
8.1 million jobs. And even if the economy adjusted, job losses 
would still exceed 2.8 million. And, moreover, our economy 
would lose, Mr. Chairman and members, $1.76 trillion in annual 
spending and $652 billion in annual output. So even if we did 
have the resources to round up and deport every undocumented 
worker in this Nation--which we do not--the consequences to our 
economy would be staggering. The Perryman study, again, as I 
said, can be found free of charge on our website, but we think 
that in today's economic climate, you and I can recognize that 
even a person who is unemployed in New York's financial sector 
more than likely would not be willing to relocate and do 
agricultural work in California or construction work in Houston 
in spite of our mild weather.
    Chairman Schumer. Certain seasons.
    Mr. Moseley. Yes, sir, Mr. Chairman. So that is where we 
certainly agree with Chairman Greenspan that immigrants are net 
contributors to our tax base. And while it is recognized that 
there are costs affiliated with health care and public 
education, the economic benefit of an educated and healthy 
workforce strengthens our economy.
    We do not believe in amnesty, Mr. Chairman. We do not 
believe in deportation. But there should be a recognized legal 
status for the undocumented so that their contributions to the 
economy can be recorded and they can be taxed for public 
services just like all of us in our community.
    What the business community requires and what the religious 
community desires and what Americans for Immigration Reform 
need, we believe, as has been stated here many times, less 
rhetoric and a real strong, common-sense solution that we can 
all support. We want leaders that are willing to share the 
truth rather than having the primary source of information come 
from the entertainment industry that inflames, rather than 
explains, the reality and complexities of the immigration 
issue.
    Mr. Chairman, on behalf of the Greater Houston Partnership, 
may I extend an invitation to you and your distinguished 
colleagues for us to host a field hearing for you in the 
Houston area at some time in the future.
    Thank you, Mr. Chairman.
    [very difficultThe prepared statement of Mr. Moseley 
appears as a submission for the record.]
    Chairman Schumer. Well, thank you, Mr. Moseley. I want to 
thank all four of our witnesses. I do not think we could have 
had four better witnesses to begin this, and from different 
perspectives each showed the need for immigration reform. And 
we will have more witnesses in the second panel who will 
augment that.
    I am going to ask my first question of Dr. Hunter. Your 
testimony was a tour de force. It really was. And I hear lots 
of testimony, and it is right at the very top of the list, so 
thank you.
    Can I ask you this: How many of your colleagues, would you 
say, in the ministries and all of the clergy would agree with 
your views on immigration? And do you think this time around 
more religious leaders who agree with your view will speak out 
in favor of immigration reform, as you have done so strongly, 
not just here but repeatedly?
    Reverend Hunter. I do, Mr. Chairman, and let me tell you 
why.
    First of all, most local religious leaders are that because 
they care very deeply about people, and the more they hear 
these stories and the more they become familiar with people who 
are caught in a very bad system, the more sympathy they have 
and the more they are aware of people's hurts and families' 
break-ups.
    The second reason is I think the tide has turned in our 
country as far as--it is almost like we are--we have been 
systematically de-sensitized to, you know, everybody 
extremizing or extrapolating every wrong thing that could 
happen. And so, therefore, the pundits do not quite have--you 
notice they are getting more and more extreme, and that is for 
the reason they have to escalate in order to get the same 
amount of attention.
    And for the religious community, there are quite a few now 
that used to be very hard on one side or the other, and they 
are kind of saying, ``Wait a minute. Let us take a second look 
at this. Let us approach this more intelligently. Let us take a 
look at this as complex problem and, therefore, work this thing 
through.''
    I think there is just a new day in this country, and I 
think that many local religious leaders are going to be 
hopeful, be prayerful, and be working toward a solution to the 
immigration reform challenge.
    Chairman Schumer. That is very good news, and I agree with 
you. I mean, even if you just look at the polling data, there 
are a small minority of Americans on either end, but most 
Americans want a solution that will be a fair solution, a 
humane solution, a legal solution. I think the time is right. 
That is, frankly, why I chose to chair this Subcommittee. In 
previous years, I had other Subcommittees here on this 
Committee.
    The next question is for Alan Greenspan, again, who gave 
great--I do not think I have to ask many questions because the 
four testimonies here were just so incredible and made a much 
more powerful case than my questions would. I would just like 
to flesh out a few things with Chairman Greenspan.
    You said that undocumented workers contribute positively in 
certain ways to the economy. Having said that, do you believe 
that a system which would rely far more on legal immigration 
and be balanced between family immigration and economically 
oriented immigration, where, let us say, 90 percent of the new 
immigrants into this country were legal as opposed to about 40 
or 45 percent, which it is now, would work better?
    Mr. Greenspan. Most certainly, Mr. Chairman. It is very 
difficult to envisage what it must be like to be an 
undocumented, illegal immigrant. I think that the Chief 
specified very well the fear that these people have of being 
deported. That cannot but have a very chilling effect on the 
flexibility or willingness to take certain different types of 
jobs.
    But let me go a step further and say how important it is to 
recognize, as Mr. Moseley has pointed out, that the very 
substantial proportion of both documented and undocumented 
immigrants in our labor force are at critical positions. They 
have very large participation at both the very lowest skill 
levels and at the very highest skill levels. If you were to 
remove either of those groups, the economy would be in very 
serious trouble.
    That also tells you, incidentally, that when you have a 
complementary labor forces, which is what the total foreign-
born employment is, the tendency is to increase the 
productivity of the total.
    For example, on your staff, Mr. Chairman, you have a number 
of senior assistants. If you hire two or three people for each 
of those, those people whom you hire are not as good as your 
assistants, but the working together of the assistants and the 
helpers enhances the productivity of both. The wage rates of 
both go up; or in a broader context in the economy, the level 
of productivity and standards of living rise. So that when you 
have a very large group of individuals who have less than a 
high school education and you put them in, say, construction 
jobs, the foremen will be far more productive because they have 
more people to supervise and more gets done. The wage rates of 
the less skilled go up. The wage rates of the foremen go up. 
Everybody benefits.
    Those who argue that immigration suppresses the wage levels 
of native-born Americans are mistaken. It does not. On the 
contrary, it raises them with the sole exception of a small 
body of those with less than a high school diploma. And even 
they--it is an arguable case.
    So the arguments against immigrant labor are just wrong.
    Chairman Schumer. Thank you, Mr. Chairman.
    For Chief Manger, you testified that asking State and local 
law enforcement to enforce Federal immigration laws is an 
unfunded mandate, which it truly is. Can you just describe in a 
little more detail the amount of money and manpower that the 
average major city police chief currently has to divert from 
other areas if you were to have to fulfill the unfunded mandate 
of enforcing Federal immigration law?
    Chief Manger. The 287(g) training I think is a prime 
example where the resources necessary to take on these 
immigration investigations is really a lot more than most 
police departments can afford to do. It is not just simply a 
matter of going for a day's training and all of a sudden you 
become--you know, you have this 287(g) training and you can do 
immigration investigations. The training itself takes over a 
month. And to have police officers that you take out of service 
to train for that length of time to be able to begin to do 
investigations that previously we have never had to do--I mean, 
it was--so you are taking on complicated investigations that 
take a long period of time.
    I will just give an example. You stop someone for a simple 
traffic violation, and there are some police departments--not 
many, but some in this country now that if you do not have a 
driver's license with you and you appear to be foreign born, 
they will initiate an immigration investigation. And it is not 
just simply running a name through a data base. Very often 
these are complicated investigations that take days in order to 
determine with some certainty someone's immigration status.
    I do not know of a police department in this country that 
has the ability to take on these types of investigations, which 
are time-consuming, which are crimes that we have never had to 
investigate before, and just do it with no impact to their 
budget and their resources.
    Chairman Schumer. I would imagine, as difficult as it is 
for a large city police department, it may be harder for a 
smaller suburban or rural police department.
    Chief Manger. Absolutely.
    Chairman Schumer. They have fewer resources.
    Chief Manger. True. Larger departments do have some 
additional resources. We generally have staff that can do 
specialized investigations. But, again, I will speak for my 
police department. If I had additional personnel, I have got 
robbery issues, I have got auto theft issues, I have got a lot 
of other crimes that I think threaten public safety a lot more 
than going after someone who may have overstayed a visa.
    Chairman Schumer. Thank you.
    Senator Cornyn.
    Senator Cornyn. I have just a couple of questions, Mr. 
Chairman. Let me start with Mr. Moseley.
    In 2007, when we were debating a comprehensive immigration 
reform bill, there was an amendment adopted that basically 
eviscerated the temporary worker provisions or guest worker 
provisions in the bill, and some observers called that a 
``poison pill'' because that was part of the understanding that 
a comprehensive immigration reform bill would necessarily 
include a guest worker provision for people who did not 
necessarily want to be American citizens but wanted to come to 
the United States, fill necessary jobs in a legal status, and 
take the skills and savings they earned during that temporary 
work period back with them to their native land.
    How important do you believe that a guest worker provision 
is to a comprehensive immigration reform bill? And why do you 
feel that way?
    Mr. Moseley. Senator, I think one of the biggest challenges 
for all of us would be to somehow put together a law with caps 
or quotas and somehow think that we can anticipate the 
workforce demands of our economy 5 years from today or 3 years 
from today or next year.
    The reality of it is we all admit today that we are part of 
a global marketplace, and as we move more and more into this 
global economy, we see a demand for workforce, and those 
demands need to be met, or we need to export jobs. It is pretty 
clear.
    Today, in the Houston economy, one of the demands we hear 
over and over again is the need for engineers in the energy 
clusters. And the people that are managing these large energy 
companies are warning us that, with baby boomers retiring, 
there is a curve that is really not going to be met without 
some type of an opportunity to bring in trained, highly trained 
workers from outside the United States, or we need to export 
those jobs. That is kind of where we see it.
    Today we have 4,000 job openings at the Texas Medical 
Center in Houston. Now, that is a range of jobs, but anybody 
who has recently been in a hospital probably has looked up and 
seen that we are importing skilled workers when they look into 
the face of a technician or a nurse and they happen to be from 
the Philippines. But we believe there is a huge value, whatever 
that mechanism is, in letting the workforce come into our 
economy and be used, and if they need to go back home, whatever 
that mechanism looks like, we do see a value in that.
    Senator Cornyn. Chairman Greenspan, may I ask you about a 
related topic? That is, to me one of the benefits of a guest 
worker program or a temporary worker visa as a component of 
comprehensive immigration reform, which was suggested by Mr. 
Moseley, for example, during times of prosperity and a lot of 
jobs you could ratchet it up. During times when the economy was 
softer and perhaps the need for those workers was reduced, you 
could dial it back without creating a permanent threat to 
American citizens not being able to find a job because maybe 
there was a foreign worker who was permanently here in the 
country who would occupy that position.
    Do you see any benefit to the flexibility in our economy 
given the ups and downs of the economy in having a temporary 
worker or a guest worker program?
    Mr. Greenspan. Yes, I do, Senator. But in the context of 
broad guidelines, the markets will work by themselves in that 
regard. Currently, for example, employment of foreign-born 
workers has suffered, because they happen to be concentrated in 
areas which are economically the weakest, such as construction. 
We are witnessing very significant decline occurring and a very 
substantial part of that are undocumented workers. They are 
withdrawing because the demand is not there. If you set broad 
principles, you do not have to calibrate as specifically as is 
implied, although I have no objection to doing it. I am not 
even sure it is necessary. But I grant you, you do need limits 
because, as I indicated in my prepared remarks, opening up in 
today's world to an unlimited flood of immigrants does unsettle 
a society. But within that context, there is far more leeway to 
open up for guest workers or temporary workers than even 
anybody is remotely talking about. And I think our economy 
could absorb them very productively, very quickly.
    Senator Cornyn. Thank you very much.
    I just have one last question for Chief Manger. You talked 
about the--and I am sympathetic with your views that the 
responsibility of Federal law enforcement officials should not 
be thrust as an unfunded mandate on local and State officials. 
But can you talk with me just a second about a phenomenon which 
I think occurs in many of our big-city jails, where you have 
people who are here illegally but who have committed serious 
crimes. And if we can separate the people who have come here in 
violation of our immigration laws, which I think most people 
would not view as a threat to their safety necessarily, and 
those who are here illegally but who have committed crimes and 
exploiting perhaps other immigrants in the immigrant community 
because they know those crimes are unlikely to be reported, is 
there some--what can the Federal Government do better to 
provide you the tools or to allow for the separation of those 
and to deal with the really dangerous criminals, including the 
transnational gangs who are taking advantage of our porous 
borders now and preying on a lot of innocent people in many of 
our big cities and elsewhere?
    Chief Manger. I think that ICE has heard the message that 
you just stated. The days of us notifying ICE that we have in 
custody someone who has overstayed a student visa and them 
thinking that it is a priority to deport that individual I 
think are passing.
    Now we have a policy within the Montgomery County Police 
Department where if we arrest someone for a violent crime and 
the individual is foreign born, we make that notification to 
ICE for them to check on the status.
    Every police chief I think would tell you that what you 
just described, there is a big difference between someone who 
is in our community committing crimes, an undocumented resident 
committing crimes in our community, the threat to public safety 
there I think necessitates ICE doing their job and removing 
that person from our community.
    One of the things that I talked about in my testimony was 
the fact that people that are here, undocumented, committing 
crimes, preying on our community, I think should receive no 
sanctuary, no safe harbor in our country. And we have enough 
folks here, documented and undocumented immigrants, that are 
contributing in our community, that are in no way threatening 
our public safety, that we need to concentrate on, and those 
that are here committing crimes I think we need to remove from 
our community.
    Senator Cornyn. A quick follow-up, and this is my last 
question. How good a job do you think the Federal Government, 
ICE, is doing now in accomplishing that goal?
    Chief Manger. Much better, I would say, than a few years 
ago. They realize they do not have the resources to get rid of 
every undocumented resident. They are now focusing on the worst 
offenders, and that is what we need them to do. And I think 
they are doing a better job of it today.
    Senator Cornyn. Thank you.
    Chairman Schumer. Thank you, Senator Cornyn.
    I could not think of four better witnesses to start off our 
long goal, quest, to come up with a comprehensive immigration 
reform bill this year. So I want to thank each and every one of 
you, and as I said, I want to distribute this testimony to all 
of my colleagues. Thanks for being here.
    Chairman Schumer. Now we will call our second panel to the 
witness stand and give them a minute to get settled.
    Let us get started with our second panel. I am going to 
introduce all four, and your entire statements will be 
submitted into the record, and then we will ask some questions.
    Doris Meissner--and I sat on the Immigration Committee when 
she has testified before, and I sat on the Immigration 
Subcommittee in the House when she was the then-INS 
Commissioner. She is a Senior Fellow now at the Migration 
Policy Institute and one of the leading thinkers in America on 
immigration and national security. Between 1993 and 2000, as I 
mentioned, she served as Commissioner of the INS. Her 
accomplishments include reforming the Nation's asylum system, 
creating new strategies for managing U.S. borders, improving 
naturalization and other services for immigrants, shaping new 
responses to migration and humanitarian emergencies, and 
strengthening cooperation in joint initiatives with Mexico, 
Canada, and other countries.
    Eliseo Medina is the International Executive Vice President 
of the SEIU, the fastest-growing labor union on the West Coast 
and the largest union in California. More than 2 million 
workers across the country, including many hundreds of 
thousands in New York, I am proud to say, are SEIU members, 
which is the union with the largest membership of immigrant 
workers.
    Wade Henderson is expected, and we hope he will be--anyone 
hear from the Leadership Conference? Is he on his way? OK. He 
said he would be here, in all fairness to Wade, he said he 
would be here at about this time, so we expect him, and I will 
introduce him now. He will not hear the introduction, but as my 
kids used to say, ``No big woop.''
    Wade Henderson is the President and CEO of the Leadership 
Conference on Civil Rights, counselor to the Leadership 
Conference on Civil Rights Education Fund. The Leadership 
Conference is the Nation's premier civil and human rights 
coalition. He is also the Joseph L. Rauh Professor of Public 
Policy at the David Clark School of Law in the University of 
the District of Columbia.
    And Kris Kobach is a professor at the University of 
Missouri, Kansas City School of Law. In 2001, Professor Kobach 
was awarded a White House fellowship which took him to 
Washington, D.C., to work for the Bush administration in the 
office of U.S. Attorney General John Ashcroft. After his 
fellowship ended, Attorney General Ashcroft asked Professor 
Kobach to stay on as his counsel. In that capacity, he served 
as the Attorney General's chief adviser on immigration law and 
border security.
    We welcome all of you, and we will begin with Doris 
Meissner.

 STATEMENT OF DORIS MEISSNER, SENIOR FELLOW, MIGRATION POLICY 
     INSTITUTE, FORMER COMMISSIONER, U.S. IMMIGRATION AND 
             NATURALIZATION SERVICE, WASHINGTON, DC

    Ms. Meissner. Thank you. Thank you very much, Senator. Let 
me begin by congratulating you for taking on this Committee and 
thank you for doing so. We all know, as you have said, that 
these are big shoes to fill, and I and my colleagues at the 
Migration Policy Institute, which is a nonpartisan think tank 
here in Washington, are available to be helpful to you and to 
the Committee with research, analysis, and policy ideas.
    I want to begin by just saying a few things about the 
economy because that, of course, looms above all right now. 
Where the economy and immigration is concerned, there are a 
couple of key facts that I think really are critical for the 
work that you are setting out to do. Chairman Greenspan alluded 
somewhat to this, but let me underscore it further, and that is 
that the growth in the foreign-born population in this country 
has slowed considerably since 2007, when the recession began, 
and that slowdown really began in 2006 with the unauthorized 
population. We have seen no significant growth in the increase 
of the size of the unauthorized population since 2006.
    That is very important because that growth was going at 
about 500,000 a year, a large number of people, for quite a few 
years running. It does not mean, however, that the people who 
are in the United States in an unauthorized status are going 
home. There is some anecdotal reporting about return migration, 
but the data do not support that there is a trend of return 
migration. So particularly where the case of the unauthorized 
population is concerned, although it is not growing, it is also 
not being reduced.
    So we are in a period of pause where immigration increases 
are concerned. It is particularly because of a slowdown in 
illegal immigration. That is new for the first time in a 
decade, and it really does provide a historic opportunity for 
needed reforms so that when growth does resume, which will 
happen, the disconnect between our broken immigration system 
and the economy might be fixed, and immigration can contribute 
then in a much healthier way to recovery and to our future as a 
Nation.
    So, with that backdrop, let me touch on just a few critical 
points that have to do with solutions, how we do this fixing. I 
want to make three points.
    First, enforcement. Where enforcement is concerned, we 
know, of course, that the new system has to have rules that are 
workable, and those are rules that have to be able to be 
enforced. Border enforcement is a given. Of course, we have to 
have border enforcement and border control. But it is also the 
case--and I think there is wide agreement--that border 
enforcement cannot succeed without meaningful employer 
enforcement. And meaningful employer enforcement depends on the 
universal verification, mandatory electronic verification, so 
that employers can comply with the requirements to hire only 
legal workers.
    The focus where verification is concerned has been almost 
entirely on the E-Verify system and on the means, the 
technology means by which one could do verification more 
effectively. But that ultimately will fail in the same way as 
the I-9 system has failed without the companion piece of 
reliable identification documents.
    I mention that because I have seen you quoted on this 
point. It is a point that I raise again and again and that we 
raise in our work, and I want to validate your position on 
that, and I want to encourage that the Committee work on that 
and that we work together on that. It is an absolutely 
essential piece of the verification puzzle.
    The second point has to do with legalization. This, of 
course, is the issue where all of the passion is invested. I am 
not going to do the pros and cons on legalization, but I want 
to make two points about legalization.
    First of all, if you take a hard-headed economic look at 
legalization, and legalization now during a recession period, 
there is a persuasive case to be made why it makes sense to do 
legalization during a recession period. I have provided the 
research and the references in detail in my statement so that 
they are available to the Committee, but I think it is 
important to step back and take that into account in this 
discussion.
    Second on legalization, I think that it is extraordinarily 
important for the Committee to work very closely with U.S. CIS 
and with DHS and Government agencies on designing a 
legalization program so that it is a program that can be 
implemented.
    We need a phased legalization program that begins with a 
simple requirement for a background check so that criminals can 
be weeded out and a straightforward registration process that 
leads to work authorization and a chance to get in the queue 
for adjustment. Then over time applicants can earn their way to 
permanent residency and ultimately to citizenship for those who 
so choose.
    My final point has to do with future flows. I think if we 
look back or IRCA, one might argue that the single biggest 
failing of IRCA was to fail to anticipate future flows of 
immigration. We looked at IRCA as a one-shot deal, we could do 
it, and move on. That was a mistake. Immigration is dynamic. 
Legal and illegal are closely tied. So we will need increased 
flows of immigration again at some point in the future when job 
growth returns, and we need to be able to provide for that in 
legislation.
    The dilemma, of course, is not only the current dilemma of 
a recession; it is the bigger dilemma of the way in which our 
immigration statutes are written today. They are extremely 
inflexible, and there is really very little ability in the 
current statutory frameworks to adjust levels of immigration 
against labor market demands and labor market changing 
circumstances. So that far too rigid system with ceilings 
numerically written into the statute are really frustrating our 
ability to have immigration work much more effectively and 
constructively for the country and for the economy. And the 
only real variable here has been illegal immigration, which is 
responsive, and that is obviously not an acceptable way to go 
or situation to be in.
    We at MPI have addressed this issue several years ago in 
work that we did with a task force that we convened, which was 
under the co-chairmanship of former Senator Abraham and 
Congressman Hamilton. Our report was called ``Immigration and 
America's Future.'' We made many recommendations, but among 
them the recommendations that we made was the idea of what we 
call a Standing Commission on Immigration and Labor Markets as 
a way of establishing an institutional response to this problem 
of flexibility and adaptation.
    Now, I know the word ``commission'' is always a problematic 
word. It has all kinds of connotations that are worrisome. But 
I would like to urge that the Committee think about this as a 
permanent capability within the Federal Government, in the 
executive branch, really akin to what the Bureau of Labor 
Statistics and the Census Bureau do, which would be to provide 
ongoing research and analysis on the relationship between 
immigration and labor markets. That is research that is not now 
available. It is not going to be produced by the academy 
because of the nature of the work and the way work gets done. 
But we need evidence, and we need ongoing evidence from which 
the Congress can make decisions that adjust levels of 
immigration in a far more systematic, regular fashion. So that 
a body like this would make recommendations based on evidence 
to the Congress for adjustments regularly, and those 
adjustments would be for the purposes of promoting economic 
growth and competitiveness for our economy for the future.
    I have given you a fuller description in the statement, but 
suffice it to say that our ability to have a more dynamic, 
responsive legal immigration system for employment-based needs 
in this country is going to be increasingly important to us in 
the future. This provides a possible way to get from here to 
there.
    Thank you very much. I look forward to working with you in 
the future.
    [The prepared statement of Ms. Meissner appears as a 
submission for the record.]
    Chairman Schumer. Thank you, Ms. Meissner.
    Mr. Medina.

 STATEMENT OF ELISEO MEDINA, EXECUTIVE VICE PRESIDENT, SERVICE 
         EMPLOYEES INTERNATIONAL UNION, WASHINGTON, DC

    Mr. Medina. Thank you, Mr. Chairman. My name is Eliseo 
Medina, and I am a very proud immigrant today. To address a 
U.S. Senate Subcommittee is a great honor, and I thank you for 
the opportunity.
    My family and I came to this country in 1956. We worked in 
the fields harvesting grapes, oranges, and other crops. We 
worked very long days, without breaks, for very low wages and 
terrible working conditions. To ask for better treatment was 
asking to be fired on the spot. But as difficult as the work 
was, we also knew that if we worked hard we had an opportunity 
to claim our own little piece of the American Dream. Because of 
my history, the issue of immigration reform is very personal to 
me.
    Today, I am an Executive Vice President of the Service 
Employees International Union, one of the largest unions in 
America. I am honored to be here today to represent the 2 
million homecare, janitors, security officers, and other SEIU 
members who live and work throughout the United States. Many of 
them immigrants who came to this country from all over the 
world.
    Regardless of where we came from, we go to work every day 
with the same goal: to work hard, to contribute to society, and 
to achieve our own American Dream.
    Today immigrant workers are advocating alongside their co-
workers and neighbors in support of economic reform, real 
health care reform, and strengthening the rights of workers 
through passage of legislation like the Employee Free Choice 
Act. I believe that to achieve that dream, we also have to 
finally address our broken immigration system. The status quo 
is simply unacceptable and works only to the benefit of those 
who break the rules.
    That is why the largest workers organizations in the 
country--the Change to Win federation and the AFL-CIO--have 
come together around a unified proposal for comprehensive 
immigration reform that consists of five components, each of 
which depends on the others for success: rational control of 
the border; a secure and effective worker authorization 
mechanism; adjustment of status of the current undocumented 
population; improvement, not expansion, of temporary worker 
programs; and an independent commission to assess and manage 
future flows, based on labor market shortages that are 
determined on the basis of actual need.
    This proposal will allow millions of undocumented workers 
to come out of the shadows, relieving them of the fear of 
arrest and deportation and of leaving behind their families. It 
will stop unscrupulous employers from taking advantage of their 
lack of legal status to exploit them and violate existing wage 
and hour and health and safety laws. Guest workers fare no 
better because they are tied to their sponsoring employer, with 
no effective redress because to complain is to lose your visa 
and be deported.
    I saw this system firsthand with my father and brother and 
later as an adult working with sugar cane cutters in Florida 
under the H-2A program. These workers are not treated as 
``guests'' in our country; they are treated more like 
indentured servants.
    The current broken system has given rise to a three-tier 
caste worker system in America: citizens, guest workers, and 
undocumented workers. This onerous system depresses wages for 
all workers because too many employers seek out the cheapest, 
most vulnerable workers in order to gain a competitive 
advantage. This helps no one, not American workers, not 
immigrants, and not businesses that play by the rules, and 
certainly not taxpayers who wind up paying for an ineffective 
enforcement system that is focused on arresting service 
workers, farm and meatpacking workers, instead of stopping drug 
smugglers, gang members or other larger threats to our national 
security.
    Real reform will allow us to focus our resources on our 
priorities instead of on our prejudices. It will solve many 
problems at one time instead of the current Band-aid approach.
    Since we unveiled our proposal, the portion that has 
received the most attention has been the independent 
commission. The men and women of the labor movement have long 
believed that our current system for bringing in permanent and 
temporary workers simply does not work effectively.
    The key to designing a sustainable workplace immigration 
system is that the flow of future workers must be rationally 
based on the always evolving labor market needs of the United 
States.
    The commission would act in two phases. First, it would 
examine the impact of immigration on the economy, wages, the 
workforce, and business in order to recommend to Congress a new 
flexible system for meeting our labor needs and set the number 
of employment visas. Next, the commission would set and 
continuously adjust future numbers based on a congressionally 
approved method.
    We believe our proposal will give all stakeholders a seat 
at the table in order to build a system that works for the long 
term that is based on sound public policy, not on politics, and 
it will provide for lasting political support.
    We hope that you will give it your consideration. Thank 
you, Mr. Chairman.
    [The prepared statement of Mr. Medina appears as a 
submission for the record.]
    Chairman Schumer. Thank you.
    OK. Mr. Henderson, I read your introduction and explained 
to people you had promised to be here around 4 o'clock, and you 
were true to your word.

  STATEMENT OF WADE HENDERSON, PRESIDENT AND CHIEF EXECUTIVE 
 OFFICER, LEADERSHIP CONFERENCE ON CIVIL RIGHTS, WASHINGTON, DC

    Mr. Henderson. My apologies. Let me begin again. Thank you, 
Chairman Schumer, for the opportunity to address what for the 
Leadership Conference on Civil Rights is even now one of the 
preeminent civil and human rights issues of the 21st century.
    I would like to begin with what I hope are a few points on 
which we can all agree.
    First, I think it is clear to everyone that our Nation's 
immigration is badly broken. It fails to keep up with economic 
realities; it does not keep track of who is here; and it does 
not give people enough incentive to play by the rules. We 
clearly need drastic changes.
    I think we also agree on the need to include more effective 
but also more realistic and more human immigration enforcement. 
It is simply unrealistic to stretch fences across our borders, 
and we cannot leave enforcement to local police or, worse, to 
private groups. But we can take more sensible measures like 
hiring more Border Patrol agents, making better use of 
technology, and working closely with Mexico against human and 
drug trafficking.
    Third, I hope we can agree on the compelling need to give 
millions of undocumented immigrants in our country a realistic, 
humane way to come out of the shadows and legalize their 
status. As a lifelong civil rights advocate, I recognize the 
treatment of undocumented immigrants is an economic and legal 
issue of great importance. But it is also a civil rights issue 
of profound significance that goes directly to our most 
fundamental understanding of civil and human rights.
    We do not need to condone violations of immigration laws, 
but motives count. And when we consider why most of our current 
undocumented population came here and the role that immigration 
policy played in aiding and abetting their arrival, it is clear 
that we should not treat them as fugitives. If they are 
otherwise law-abiding and willing to contribute and play by our 
Nation's rules, then we should provide them with lawful status.
    And, fourth, because we all agree that families are the 
backbone of our society, our immigration laws should reflect 
this instead of keeping them apart as they do now.
    Moving more directly to the focus of today's hearing, how 
to overhaul our immigration system, I am certainly mindful that 
these are incredibly challenging times. Our economy is badly 
struggling, leaving countless numbers of Americans economically 
insecure, and Congress obviously has a lot on its plate this 
year. But from our perspective, the challenge of immigration 
reform in 2009 is also pressing. However, to achieve reform, 
the American people must be convinced that even in these 
difficult times, reform makes sense economically as well as 
morally, and that the needs of all Americans are considered.
    For example, the needs of low-wage workers, a group 
disproportionately composed of African Americans, have long 
been neglected by policymakers, and this neglect could impede 
immigration reform. The situation facing African American 
workers is a complicated one, and as I explain in more detail 
in my written testimony, there is no consensus on whether 
immigration worsens their employment situation.
    For example, long before immigration policies were made 
more generous in the 1960s, black unemployment rates were twice 
as high as for white workers, and they have stayed that way 
even as the immigrant percentage of our population has 
increased. Nevertheless, immigration opponents continue to 
raise the specter of job loss and reduced wages among African 
Americans as a tactic in their opposition to comprehensive 
reform.
    Economic insecurity is certainly very keenly felt today in 
the African American community, as in every community. But this 
does not mean that African Americans oppose comprehensive 
immigration reform, and we at the LCCR have done extensive 
research that confirms that point. Instead, it underscores the 
need for reform proposals that will simultaneously advance the 
economic well-being of all low-wage workers.
    I believe that reform must take two key steps in order to 
succeed: first, it must forge policies that promote economic 
advancement for native-born workers; and, second, prevent 
immigrant workers from being exploited and being used to 
undercut the wages for everyone else.
    As to the first part, my written testimony describes some 
ideas jointly developed by civil rights leaders to address the 
concerns of low-income workers across the board. They include: 
better enforcement of anti-discrimination laws; improved job 
vacancy notification systems to give native-born workers better 
job information; increased enforcement of workplace standards; 
and more resources for job skills, training, and to help 
workers relocate.
    The second key component is an immigration bill that 
provides for genuinely fair treatment of immigrants and 
prevents immigrant workers from being used to undercut 
standards for all workers. The American labor movement recently 
issued a blueprint that embodies these ideas, and my friend 
Eliseo Medina has already addressed some of these issues in his 
testimony.
    Now, before I finish, I would like to add that most African 
Americans understand better than almost anyone else that it is 
inherently wrong to divide people along the lines of race and 
ethnicity or national origin, and that ``us versus them'' wedge 
politics hurts everyone in the long run. That is why finally 
African Americans also take note of how consistently certain 
groups show their concern for us across the board and not just 
when it comes to immigration policy.
    Sadly, immigration restrictionists rarely show interest in 
the African American community at other times. To anyone who 
looks closely at where immigration restrictionists stand on 
other priorities of importance to African Americans, it is 
clear that they are not and never have been our friends.
    I want to thank you again for having me here today, and I 
look forward to your questions.
    [The prepared statement of Mr. Henderson appears as a 
submission for the record.]
    Chairman Schumer. Thank you, Wade Henderson.
    Now they did call another vote. We have about 6 minutes 
left on it, so, Mr. Kobach, to give you a full hearing and so I 
would have time to ask questions, do people mind waiting? I 
will get back as quickly as I can. Is that OK with all our 
witnesses? Great. OK. Thank you.
    The hearing is temporarily recessed once again for a vote.
    [Recess 4:29 p.m. to 4:52 p.m.]
    Chairman Schumer. The hearing will come to order, and we 
apologize to all the witnesses for that brief interlude. And 
now we are ready for Mr. Kobach.

 STATEMENT OF KRIS W. KOBACH, PROFESSOR OF LAW, UNIVERSITY OF 
                MISSOURI, KANSAS CITY, MISSOURI

    Mr. Kobach. Thank you, Mr. Chairman. I will assume for the 
sake of this hearing that when we talk about comprehensive 
immigration reform, we mean reform similar in basic respects to 
the Senate bill 1348 of 2007, and I will explain with that 
understanding two basic reasons why pursuing that course of 
action would be ill-advised: first, the incapacity of the 
administration of U.S. CIS, the bureaucratic incapacity to 
implement the amnesty in the time scale that was anticipated by 
that bill; and, secondly, the national security concerns that 
must flow from any large-scale amnesty.
    First, looking at the CIS, it simply does not have the 
resources at this time to effectively implement an amnesty of 
the scale contemplated by the 2007 bill. To understand this, 
just consider a few numbers. On top of the 12 million-plus 
illegal aliens in the country who would be eligible for the 
amnesty, presumably, there would also be a mass influx of 
hundreds of thousands or perhaps millions more, which is 
exactly what happened after the 1986 amnesty, who would present 
fraudulent documents to apply for the amnesty as if they had 
already been here. INS reported after the 1986 amnesty that 
they discovered 398,000 cases of such fraud, and it is 
reasonable to expect that a similar influx would occur this 
time.
    But let us just assume for the sake of argument that 12 
million illegal aliens are eligible and apply for the amnesty. 
Now, the 2007 bill required everyone to apply within a single 
year period. There are 250 calendar days that the Government is 
open for business in a given year. That means that there would 
have to be an average of 48,000 applications for amnesty every 
day. As of September 2008, there were only 3,638 status 
adjudicators at U.S. CIS, and that number cannot be increased 
quickly because of the difficulty of hiring and training them 
quickly, and, of course, the attrition of existing 
adjudicators. Forty-eight thousand applications spread among 
about 3,600 adjudicators means an average of 13 amnesty 
applications per adjudicator per day. And, of course, on some 
days the number might well be double that amount. And under the 
2007 bill, with each application the adjudicator had only one 
business day to determine if there were any national security 
or criminal reasons why an individual application should not be 
granted.
    Now, that is a bleak picture, but unfortunately it gets 
worse because that is assuming that those adjudicators are not 
doing anything right now. Of course, they are. There is a 
backlog of pending applications of approximately 3 million 
cases at present, and, of course, on top of that comes the 4 to 
6 million applications for things like green cards and other 
benefits that we currently grant that come in every year.
    The GAO recently reported that U.S. CIS is, accordingly, 
stretched to the breaking point--so much so that there is so 
much time pressure that they spend too little time scrutinizing 
the applications. As a result, the GAO concluded the failure to 
detect fraud is already ``an ongoing and serious problem'' at 
U.S. CIS. They said a high-pressure production environment 
exists, and it is widely known that at some U.S. CIS offices, 
there is an informal so-called 6-minute rule in place where an 
adjudicator has to get through at least 10 applications per 
hour, and it is a veritable bureaucratic sweatshop.
    Well, as a result of this time pressure, U.S. CIS right now 
is failing to engage in common-sense verification with outside 
agencies, for example, calling a State DMV to see if two people 
who allege that they are married are actually living together. 
And, in fact, in many offices adjudicators are discouraged from 
making back-up calls like that.
    So this agency is already dangerously overburdened and 
susceptible to fraud. What would an amnesty of the style 
contemplated by the 2007 bill do? It would more than triple 
their existing workload. This 6-minute rule might become a 3-
minute rule or a 2-minute rule. And it must also be remembered 
that the much smaller amnesty of 1986 for 2.7 million aliens 
was extended--or, rather, it took 17 years for that amnesty to 
be fully implemented. As late as fiscal year 2003, U.S. CIS was 
still adjudicating applications from the 1986 amnesty. This 
Committee is now contemplating an amnesty that would be 
approximately 4 times as large.
    Now, in the past U.S. CIS, when presented with a proposal 
like this, has said that the way it would deal with that surge 
of applications is by hiring contractors and that that might 
somehow solve the problem. But that approach is problematic for 
two reasons.
    First of all, it is unlikely that the necessary background 
checks and training of the contractors could be completed in 
time. There is already a massive backload at the Office of 
Personnel Management, which does background checks on U.S. 
Federal Government employees, of several hundred thousand 
people. The 2007 bill ignored that problem.
    The second problem is that contractors, even if they could 
be found and quickly put into place, they have to be trained.
    Now, one of the benefits of our current status adjudicators 
is that they are expert in immigration law and they are trained 
in detecting fraud in the applications for benefits. It is 
simply critical that in any amnesty the adjudicators be 
properly trained.
    Secondly, I want to talk about some national security 
concerns. An additional flaw in the 2007 bill is that it would 
have required any background check, as I mentioned, for the 
probationary visa to be accomplished within one business day. 
Now, that might be possible if the U.S. Government had a 
readily searchable computer database of every terrorist in the 
world. But, in fact, many of the records are paper records, and 
many of the records are held by foreign governments. So a 24-
hour background check simply is impossible. Indeed, right now 
the FBI is doing name checks for U.S. CIS for applicants for 
benefits, and there is a huge backlog of about 60,000 name 
checks waiting at the FBI right now.
    Now, their objective, if all of the problems are solved, is 
to get to a world where most of the name checks can be done in 
30 days and all of the name checks can be done in 90 days. But 
we are not there yet. So to imagine that we could do something 
like the 2007 bill and have a thorough name check in 24 hours 
is simply infeasible.
    But even when the Government has as much time as it needs, 
as much time as it wants to do a name check, terrorist 
applications can get through. Case in point: Mahmud ``the Red'' 
Abouhalima. He was given legal status under the 1986 amnesty as 
a seasonal agricultural worker even though he was driving a cab 
in New York. He subsequently was a ringleader in the 1993 plot 
against the World Trade Center, and his brother Mohammed also 
got amnesty fraudulently in the 1986 amnesty.
    Finally, I would like to conclude by pointing that a 
terrorist has one other option other than attempting to apply 
for the amnesty under his real name, and that is to simply 
invent a clean identity, a fictitious identity. The 2007 bill 
failed to include any safeguard for this problem, and I would 
urge you, if a bill is drafted again, it must close this 
loophole, because the former bill never contained any 
requirement that a secure, biometric embedded passport be 
provided to prove that the amnesty applicant is who he says he 
is. All it required was two scraps of paper, two easily forged 
documents, like a pay stub or a bank slip, saying that a person 
of this name exists. Under that bill, a person could walk into 
U.S. CIS office, call himself ``Rumpelstiltskin,'' offer two 
easily forged pieces of paper, and walk out the next day with a 
Federal Government-issued ID card under that name, which he 
could then use as a breeder document to get a driver's license, 
to board airplanes, to do all sorts of things. And that gap can 
be closed if the bill were to include a requirement that every 
amnesty applicant provide a passport, a secure passport of the 
type that has embedded biometrics, which some countries, but 
not all countries, currently issue today.
    In conclusion, there are very large bureaucratic problems, 
incapacity problems, and there is also the issue of terrorism, 
which is a very real threat. I am not saying that all or even a 
very large number of amnesty applicants would be terrorists, 
but the point is if an amnesty program is created, it has to 
take into this risk.
    Thank you.
    [The prepared statement of Mr. Kobach appears as a 
submission for the record.]
    Chairman Schumer. Thank you, Mr. Kobach.
    All right. Here is what I want to ask our panel. The basic 
formulation, as I see it, to do immigration reform is I think 
the American people would accept a fair, reasonable path to 
citizenship for the illegal immigrants who are here. I think 
they would accept a full future immigration policy which would 
have room for both, and we are going to have to resolve both. I 
know, Wade, you said family has to come first. There are people 
who say jobs has to come first. I think you have to have both 
in there. I think there would be room for it. And I think we 
can even come to an agreement. I mean, there is a great deal of 
disagreement, as Mr. Medina would admit, as to how you get 
temporary workers into the country.
    If the American people were convinced there would not be 
another wave of illegal immigration, which means you have 
really got to be hard on that, very hard, that is basically my 
view. And I would like to know from at least the three 
panelists here, since Mr. Kobach is against the whole thing and 
just calls it ``amnesty'' and that is that, I would like to ask 
the other three on the panel: Do you think that is a reasonable 
formulation? We can start with you, Ms. Meissner.
    Ms. Meissner. Yes, I do, and I think that it actually 
tracks the way in which--the comments that I gave, and I think 
that there is--that continues to be the framework, and I think 
we have got to work out the details of that framework.
    Chairman Schumer. All right. How about you, Mr. Medina?
    Mr. Medina. I would agree, Mr. Chairman, and let me just 
say, correcting one of the comments that the labor market is 
not opposed to temporary workers coming in the future, it is a 
question of how many, how do they get here, and what rights 
they have when they get here. But we are not opposed to that 
question because we understand that there may be, will be times 
when the economy needs these workers.
    The last thing I would----
    Chairman Schumer. And there are probably certain industries 
that need them more than others.
    Mr. Medina. Yes.
    Chairman Schumer. I mean, I have not studied this yet, but 
you could see where agriculture would need it more than 
construction, for instance. Is that unfair?
    Mr. Medina. And this is why we propose a commission so that 
you can actually wrestle with all of these questions and come 
up with a workable solution.
    And, Mr. Chairman, if I may, one last comment is on the 
question of national security concerns. It seems to me that it 
does not make any sense to think that somehow we are safer if 
there are 12 million people that we do not know who they are, 
what their intentions are, or what their background is, that we 
are much safer if we bring them forth and figure out who they 
are, where they live, where they work, and what they are doing. 
And to continue to ignore that, I would submit to you, is more 
about national security concern than legalizing them.
    Chairman Schumer. Mr. Henderson.
    Mr. Henderson. Mr. Chairman, I think you have articulated a 
common-sense framework that really is the core of, I think, 
popular support for immigration reform as we understand it, and 
I think it would unite the American people around a 
comprehensive bill, even in a time of economic challenge where 
jobs obviously and employment are on the minds of all 
Americans. I think you are right that Americans recognize the 
compelling nature of a legalization program and would be 
willing to support it so long as the bill met the other 
criteria that you have outlined.
    Chairman Schumer. I mean, I have put it and I think we have 
to put frankly and not beat around the bush if we are going to 
get something done here, which is my goal. Most Americans are 
pro-immigration but anti-illegal immigration.
    Does anyone on the panel disagree with that? No? Mr. 
Kobach, you agree with that, right? OK.
    OK. Now, let's talk a little bit about--because Mr. Medina 
and Ms. Meissner had a little bit of common ground in terms of 
a commission, but I did not understand yours first, Ms. 
Meissner. Would you want the commission to set a number that 
Congress would have to ratify every year?
    Ms. Meissner. I view this commission as a permanent 
capability of the Federal Government to be doing research and 
analysis that is the basis for recommendations to Congress to 
adjust levels.
    Chairman Schumer. How frequently?
    Ms. Meissner. And it could be as frequent--I would say 
mandatorily every 2 years, but more frequently if need be.
    Chairman Schumer. You could run into lots of different 
problems; by having Congress do this every 2 years is a 
problem.
    Ms. Meissner. Well, you would not have to. You could get a 
recommendation that things are fine and stay at a steady state. 
But the point is to be constantly reviewing and learning about 
what is happening and where there are disconnects. And the 
point is to be doing it on the basis of evidence, not political 
horse trading.
    Now, the horse trading obviously needs to go on, and that 
is your job. I am simply saying that you----
    Chairman Schumer. Hard enough once every decade, let alone 
every 2 years.
    Ms. Meissner. Well, but the problem with every decade is 
exactly where we are at.
    Chairman Schumer. You are right.
    Ms. Meissner. So, you know, my mental model of this is. 
given where we are at, to have levels that are written into the 
statute, because I do not think that the Congress at this point 
is prepared to have enough confidence in any other way of doing 
it, and then to begin over time to adjust against those levels 
the same up or down. And in a period of recession, as we are in 
right now, it might be much more frequently that this bureau--I 
am going to call it a ``bureau'' of the executive branch--you 
know, comes to the Congress, and then there has got to be a 
mechanism for how it is that you actually decide to act or not 
act on that recommendation.
    Chairman Schumer. I just wonder if a commission--you know, 
I do not know. I am not taking a position pro on con on a 
commission, just trying, since two different witnesses threw it 
out, I am not sure that the commission would be trusted, so to 
speak, by either side in the debate, or if it is trusted by one 
side, not on the other. What do you have to say about that? Mr. 
Medina, some have said that, well, the commission you are 
talking about is just a way to sort of say we do not need any 
guest workers or----
    Mr. Medina. Not at all.
    Chairman Schumer. OK. Could you address that?
    Mr. Medina. We certainly understand that there are labor 
market needs. What we envision is a commission that would be 
much more nimble than the current system so that they would be 
able, as Ms. Meissner said, to develop the data on where and 
how and how many workers are needed and then adjust 
accordingly. It would still be subject to congressional 
approval.
    Chairman Schumer. Oh, yours would be as well to 
congressional approval?
    Mr. Medina. Yes, but the whole process, but that the 
commission would be the one that would be charged with 
developing the information and then saying here is our 
proposal.
    Chairman Schumer. Right. And so your commission and Ms. 
Meissner's commission are not all that different.
    Mr. Medina. I think that other than what we would like it 
to be able--we see also the commission as a place where we 
could all sit together, that all the stakeholders would come 
together and hash out what the system is, and then Congress 
then could take up approval or disapproval on--what we thought 
about is that we had a fast-track process. And, again, this is 
just the concepts that we have come up with for purposes of the 
conversation.
    Chairman Schumer. Right, and you believe that there is a 
need, there is room, you would accept a certain amount of guest 
workers each year or----
    Mr. Medina. There will need to be workers coming in the 
future. We absolutely understand that.
    Chairman Schumer. Right, but sometimes you could so no 
guest workers, just everyone who comes should have a path to 
citizenship.
    Mr. Medina. Well, what we would like----
    Chairman Schumer. That is the other side of it.
    Mr. Medina.--is to be able to take a look at the future 
flow that we have today and provide a legal and orderly way for 
them to get here so that the way to get here is not through the 
desert or not through sidestepping the port of entry.
    Chairman Schumer. Of course.
    Mr. Medina. And then as we do that, the one change that we 
think is important is that it not be like today's H-1B and H-2A 
where workers have no rights, and there is a series of things 
that we would advocate, as we have continuously, about in order 
for workers not to come and then be in a situation where they 
are so tied to the employer that they have no effective redress 
when they get exploited.
    Chairman Schumer. Right. Ms. Meissner, you have the most 
experience with the bureaucracy. What do you have to say about 
Mr. Kobach's view that the bureaucracy would be incapable of 
dealing with a path to citizenship for such a large number of 
people.
    Ms. Meissner. Well, it certainly is incapable of dealing 
with it right now, but that is a totally static view of the way 
things work. Obviously, if there were legalization developed by 
the Congress, it would have to include the kind of planning and 
the kind of resources for the implementing agencies to 
implement. And I think, you know, you would do that, and the 
reason that I urged that the legislation be written in very 
close collaboration with U.S. CIS and DHS is precisely for 
reasons of resources, but also for reasons how it is designed.
    The worst thing that could be done this time around based 
on what we learned during IRCA is a program that is what I 
think of as retrospective; in other words, a program that asks 
to look at documents from the past for people to prove that 
they have been in the country. That would be a deal breaker.
    This should be a program that is prospective, is getting 
people to register and come forward, a requirement to come 
forward, and then prospectively earn the adjustment to 
permanent residence and to citizenship. That is an entirely 
different scheme to try to implement, but it matters very much 
how the legislation is written.
    Now, you know, you look at IRCA. The legalization program 
in IRCA was actually successfully implemented. INS created an 
entirely parallel structure within the agency focused solely on 
legalization--its own offices, its own staff, its own 
training--and they were able to get it done through the fees 
that were collected with the application. You would have to do 
something along those lines. It would be different, but you can 
do it.
    When the 1996 laws passed, there was an enormous workload 
with the 1996 laws. We wrote 60 regulations in 6 months during 
that period. A bureaucracy staffs up and does the planning, 
working with the Congress, to carry out a mandate like this.
    Chairman Schumer. Right. You disagree with her analysis of 
IRCA, Mr. Kobach, with a separate group so it would not have 
the extra burdens with enough employees to do the job? Or do--
--
    Mr. Kobach. I agree that----
    Chairman Schumer.--you think it is just impossible, period?
    Mr. Kobach. No, I do not think it is impossible, period, 
the administrative--but you would have to massively increase 
the number of people. We are talking about going from 3,600 to 
somewhere north of 10,000, and that would require training 
them, and that would require finding them, and that would 
require a period of time to get them in place.
    And if I might just mention one other point----
    Chairman Schumer. But it could be done.
    Mr. Kobach. In theory, it could be done, but it would take 
time. If I could----
    Chairman Schumer. Well, no one is saying--you know, your 
plan is one plan, but it is not the only one, that all 12 
million apply and get their papers processed in a year. 
Certainly everyone should have to register immediately so you 
avoid fraud and stuff, but not be processed, not put on the 
path.
    Mr. Kobach. But the 2007 bill actually said, ``From this 
date, you have 12 months, and everybody has to come in.'' So it 
actually did not allow time to beef up----
    Chairman Schumer. But you could phase it in, right?
    Mr. Kobach. In theory, one could. I want to mention one 
other point about commissions. You know, we did have a very big 
and important commission, the Jordan Commission, which studied 
immigration reform, and I think it is fitting for everyone to 
go back and re-read that Commission's report because they had a 
lot of good recommendations. And on the subject of legal 
immigration, one of their points was that, yes, legal 
immigration is good, but within reasonable limits. And that is 
my view, too. You have to have limits so you do not displace 
American workers, and you have to have limits so that you do 
not overload our assimilation system, so that our melting pot 
continues to work and that people continue to recognize 
themselves as Americans.
    Chairman Schumer. But you do admit, obviously, that the 
present system is broken?
    Mr. Kobach. Well, I will admit that some aspects of it are 
broken, but actually our enforcement aspects have been working 
relatively well in the last year because of the increased 
worksite enforcement that ICE has been engaged in and also 
because of some of the assistance from States like Arizona that 
compel E-Verify, you have actually seen self-deportation from 
certain jurisdictions, especially Arizona, because of the 
enhanced enforcement pressure.
    Chairman Schumer. I think one of the witnesses testified 
that the number of illegal immigrants here in America had not 
gone down. It had not gone up, but it had not gone down.
    Mr. Kobach. According to----
    Chairman Schumer. Is that your view?
    Ms. Meissner. That was mine, yes.
    Mr. Kobach. I believe that that is incorrect. According to 
the Current Population Survey of the U.S. Census Bureau, in 
fiscal year 2008--and these numbers were reported by the Center 
for Immigration Studies. In 2008, there was a net decrease of 
1.3 million illegal aliens.
    Chairman Schumer. You disagree with that, Ms. Meissner?
    Ms. Meissner. If you take deportations--which is the normal 
course of enforcement--out, there has not been a net change in 
the size of--it is just not growing.
    Chairman Schumer. OK. Let me see here. Let me see if I have 
anything else.
    Yes, Mr. Medina, I think the labor market has had a change 
in its views on immigration over the last 5 years, fairly 
dramatic, led by your union, I would say. Could you tell us why 
you think immigration reform done in the right way would not 
hurt the members of your union, many of whom compete with 
immigrants for jobs?
    Mr. Medina. We think that the problem right now, Senator, 
is that you have millions of workers with no rights, cannot 
defend themselves, get taken advantage of by the employers, and 
under that situation where you have undocumented workers, guest 
workers, and native workers, you wind up with a situation where 
everybody suffers. And we believe that the best way to ensure 
is to have a level playing field for all employers that have to 
comply with the laws, that have to do the same things, whether 
it be OSHA or wage and hour laws, and that also are protected 
by our labor laws, that that will do more to protect the 
standard for workers in this country than anything else we can 
do.
    Chairman Schumer. And does most of the labor--I mean, the 
NCIU has been, as I said, ahead of the curve on this issue. Do 
you think most of the labor market now supports what you are 
saying here?
    Mr. Medina. This position that we took has been endorsed by 
every union in the Change to Win Federation and in the AFL-CIO. 
So we are all on the same page. I know much has been made about 
divisions within labor in the past, but in reality, we were on 
the same page with 90 percent of the issues. The one question 
that we were wrestling with was future flows, how you address 
them. We have now come to a process that we believe would deal 
with that question, and so we are all moving forward.
    Chairman Schumer. If I sat you down with, say, Mr. Moseley, 
do you think you could come to an agreement on how to structure 
it?
    Mr. Medina. I believe so. I think that one of the things 
that we really are working hard on is to have this conversation 
with every stakeholder.
    Chairman Schumer. Well, that is what we hope to encourage 
here on the four or five major issues that get in the way of 
immigration reform. But on guest workers, which helped bring 
down the bill last time, you heard, I think, Jon Kyl, you think 
that business and labor could come to an agreement.
    Mr. Medina. I think that everybody is sick and tired of a 
system that does not work, and I think people want to make it 
work.
    Chairman Schumer. I think the time is right. I do.
    Do you agree with that, Doctor--Doris--are you Dr. Meissner 
or----
    Ms. Meissner. No. I am Doris Meissner.
    Chairman Schumer. Mrs. Meissner, Ms. Meissner. Former 
Commissioner. I used to call you ``Commissioner.'' Do you think 
labor and business could come to an agreement on the guest 
worker----
    Ms. Meissner. I do not know, because I do not--I mean, I do 
not know all of the issues, the political issues. But I will 
tell you this----
    Chairman Schumer. Just your hunch. You have more 
experience----
    Ms. Meissner. I do think so, and I actually think that 
there is an idea here that I want to throw into the mix, which 
is an idea that we also came up with in the ``America's 
Future'' task force, and it is the idea of provisional visas, 
which is a new visa stream that starts out as a temporary visa 
but can also become a visa that leads you into permanent 
immigration. And I think that is the reality of the way things 
happen on the ground, is that people tend to come for temporary 
reasons, whether they are high-skilled or low-skilled. Right 
now with H-1Bs, we have found a way that they should be allowed 
to adjust. But that kind of a concept of a visa that actually 
may start with one purpose, but as people attach to the labor 
market and as conditions change, may ultimately make it 
possible for them to be eligible to become permanent is another 
form of flexibility that we need.
    I think ideas like that in connection with discussions 
among constituency groups, business and labor, do offer the 
opportunity for some real synergies.
    Chairman Schumer. Mr. Medina, is that on the outset 
something you would consider? I am not asking you to endorse 
it.
    Mr. Medina. We are always ready and eager to sit down and 
have conversations to figure out how we solve it. Absolutely.
    Chairman Schumer. All right. Now I just want to ask each of 
you a final question. If the goal is to come up with 
comprehensive immigration reform that would get us support of 
the majority of the American people, a majority of the House, a 
majority of the Senate, which issue do you think is our biggest 
stumbling block? OK? You can have a minute to think about it. 
It is sort of like asking what is your favorite song. It is 
hard to pick one, right? Or your favorite movie.
    Go ahead, Ms. Meissner.
    Ms. Meissner. I think it remains the issue of legalization.
    Chairman Schumer. You mean the path to citizenship, how 
it----
    Ms. Meissner. No. The idea that a legalization program is 
rewarding lawbreaking and the continued inability to have that 
conversation. So that I think that it ultimately becomes the 
difficult--the most difficult continues to be a political 
issue, not a substantive policy issue.
    Chairman Schumer. Right. But, again, my view is that at 
least that view is mooted, A, if the path to citizenship is a 
real path and has penalties and other types of things but is 
reasonable, OK? You know, Mr. Kobach would just call anything 
``amnesty,'' but if you rob somebody and serve 5 years in jail 
and then come out, it is not amnesty, OK? Or you get fined and 
you pay it, it is not amnesty. Amnesty is saying we absolve 
you, and no one is for that. So I thought it was sort of unfair 
for you to call this program ``amnesty.'' That is not what it 
is, and I will let you respond to that. But my view is----
    Ms. Meissner. But I think explaining is the critical issue.
    Chairman Schumer. Yes, but, again, I think most Americans, 
at least the polling data I have seen and talking to people, 
their greatest fear is not this time's path to citizenship, 
because they know that there is no real other solution, and 
they are not happy with the present, but that it is going to 
happen again and again and again. And as most of you know, I 
have some thoughts on that issue, which we are not going to 
discuss at this hearing, but I think there are ways to convince 
people it is pretty foolproof.
    What do you think, Mr. Medina?
    Mr. Medina. I would agree with Ms. Meissner, but I think 
that all the polls and all the focus groups that have been done 
is that once people understand this is not Ronald Reagan's 
amnesty, this is earned legalization where you will have to pay 
a fine, you will have to be gainfully employed, you have to 
undergo a background check, you have to learn English and 
integrate yourself into society----
    Chairman Schumer. Go to the back of the line.
    Mr. Medina [continuing].--You need to earn that and go to 
the back of the line. It is earned legalization, not amnesty. 
When people hear that, I think they say, ``That sounds like a 
good thing to me. Let's fix it.'' And so I think----
    Chairman Schumer. I think what the polling data shows is 
when it is described as amnesty, they say no, and then when you 
describe it without either calling it amnesty or a legal path--
you know, a path to legalization, people say, ``That sounds 
good.'' They list the five or six things that you have. But 
that is not how it always works.
    Wade? Mr. Henderson.
    Mr. Henderson. Please call me ``Wade,'' Mr. Chairman. 
Actually----
    Chairman Schumer. You can call me--if I am going to call 
you ``Wade,'' you can call me ``Chuck.''
    Mr. Henderson. All right. I actually think, sir, that your 
formulation really highlights the greater difficulty, I think, 
in securing public support for comprehensive reform as we have 
described it. I would agree with both Doris Meissner and Eliseo 
Medina about legalization being a challenge. But I do not think 
it is the most difficult challenge. I think the public is 
there. I think for all kinds of compelling reasons they will 
embrace it in time.
    I think you have identified what is probably the greater 
challenge, which is to convince the public that this process 
will not have to be repeated again or every decade, as now has 
been the case, in order to accommodate this new flow of 
undocumented individuals. I think that is No. 1.
    Hand in glove with that goes this issue of a secure form of 
identification that helps to ensure that both individuals who 
are given access to legalization as well as those given access 
to employment have gone through a process that ensures that 
they are the individuals they purport to be and that that form 
of identification will be viable and not then be somehow used 
improperly in other contexts, whether it is for purposes of 
harassment in the law enforcement sense, for purposes of 
exclusion under voter ID laws. There are many permutations of 
this issue that----
    Chairman Schumer. Do you think it is doable?
    Mr. Henderson. I think it is doable, but I think it will 
be----
    Chairman Schumer. For the audience, Wade--Mr. Henderson--
used to be ACLU, so his previous hat is going to be valuable in 
helping us do this right.
    Mr. Henderson. I think it can be done, but I think it is 
going to be a real challenge. I think it is a challenge.
    Chairman Schumer. Mr. Kobach, you get the last word. What 
is going to be the toughest part of this?
    Mr. Kobach. Mr. Chairman, if I might just----
    Chairman Schumer. Aside from convincing you.
    [Laughter.]
    Mr. Kobach. Let me just go to your discussion about the 
term ``amnesty.'' I think an amnesty would probably be defined 
as something that gives the unlawfully present alien legal 
presence in the----
    Chairman Schumer. Why don't you define ``amnesty'' without 
using the specific? What is amnesty in general?
    Mr. Kobach. Well, think of the analogy of a thief. If you 
give a thief an amnesty, an amnesty would include forgiving him 
for his crime after he has paid his--or maybe not making him 
pay a penalty. But you certainly would not say that an amnesty 
has to include giving the thief the money that he stole.
    Now, what has an illegal alien taken? Presence in the 
United States that was not given to him. So, therefore, an 
amnesty should not include, in my view, a true amnesty or a 
good amnesty would not include giving him what he has taken.
    What kind of amnesty could I support? Well, here is one, 
and maybe you did not think I could support one. But that is, 
right now we have a 10-year bar that says if you have been 
unlawfully present in the United States, you cannot apply for a 
visa for 10 years. I would say do not give the illegal alien 
lawful presence in the United States right away, say, ``You can 
go back to your home country, and you can get in line with all 
the other millions of people, and we will not impose that 10-
year bar.'' That would be the kind of amnesty I could accept, 
because that would actually encourage people to go home and it 
would encourage them to get right with the law.
    But as far as the stumbling block, I agree with former 
Commissioner Meissner. The biggest stumbling block is the 
sentiment of the American people--this is according to a 
Rasmussen poll in August of 2008--that 69 percent of voters say 
controlling the border is more important than legalizing the 
status of undocumented workers, and I think the American people 
are right, and the American people would probably prefer to see 
for a while if enforcement works.
    Chairman Schumer. Let me ask you this. If you said you 
could do both, would they say yes or no--controlling the border 
and--what was the second part?
    Mr. Kobach. The second----
    Chairman Schumer. The Rasmussen poll, what----
    Mr. Kobach. Oh, controlling the border and legalizing the 
status of undocumented workers.
    Chairman Schumer. If you said both or neither, what do you 
think the American people would say?
    Mr. Kobach. Well, but----
    Chairman Schumer. Just answer the question.
    Mr. Kobach. If the American people--if it said both or 
neither?
    Chairman Schumer. Yes.
    Mr. Kobach. That is an interesting question. I have never 
seen that question polled.
    Chairman Schumer. OK. What do you think?
    Mr. Kobach. I think probably most would say neither, 
because I think the reaction--they already perceive that the 
border is uncontrolled, and so, therefore, legalizing would be 
a change from the status quo, so they would probably say they 
would rather have the status quo than an amnesty program. And I 
think you would probably get that result.
    Chairman Schumer. Right. Anyone else want to say anything 
here? Because we are going to probably call on you in the 
future to help us.
    [No response.]
    Chairman Schumer. Well, then, I thank you. This has been a 
great start, and as I said, I am optimistic, using the 
formulations that we have talked about today, that we might--
not for sure, and, boy, it is hard. I do not want to give 
anyone the illusion that this is easy. But we might be able to 
get something done that really stands by the basic view that 
Americans support, like legal immigration and do not like 
illegal immigration, and implement something that makes that 
happen.
    With that, I want to thank our panel not only for their 
wisdom and their excellent testimony and their patience, but 
for being here. And just before we break, I have to ask 
unanimous consent to put--OK. At this time I would also like to 
submit for the record testimony from the following 
organizations: AFL-CIO, Asian American Justice Center, Economic 
Policy Institute, El Paso Police Department, Essential Worker 
Immigration Coalition, National Korean American Service and 
Education Consortium, New York Immigrant Coalition, Partnership 
for New York Services, Immigrant Rights, and Education Network. 
So, without objection, those are added to the record. The 
record is open for 7 days.
    And with that, we are closing this hearing and thanking our 
witnesses again.
    [Whereupon, at 5:28 p.m., the Subcommittee was adjourned.]
    [Submissions for the record follow.]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
                                 <all>

</pre></body></html>
